1a
APPENDIX A
IN THE
SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE,
DOUGHERTY, WECHT, MUNDY, JJ.
COMMONWEALTH OF
PENNSYLVANIA,
Appellee
v.
JON ERIC SHAFFER,
Appellant

No. 16 WAP 2018
Appeal from the Order of
the Superior Court entered
December 21, 2017 at No.
435 WDA 2017, affirming
the Judgment of Sentence
of the Court of Common
Pleas of Butler County entered March 9, 2017, at No.
CP-10-CR-0000896-2016.
Argued: December 6, 2018

OPINION
JUSTICE BAER
DECIDED: JUNE 18, 2019
This is an appeal from the judgment of the Superior Court, which affirmed the trial court’s order denying a motion to suppress images of child pornography
discovered by a computer repair shop employee after
Jon Eric Shaffer (“Appellant”) took his laptop to the
commercial establishment for repair and consented to
the replacement of the laptop’s hard drive. The Superior Court held that the trial court did not err in denying suppression because Appellant abandoned his reasonable expectation of privacy in the computer files
under the facts presented. We affirm the judgment of
the Superior Court, albeit on different grounds. See
Commonwealth v. Wholaver, 177 A.3d 136, 145 (Pa.

2a
2018) (holding that this Court may affirm a valid judgment or order for any reason appearing of record).
We hold that because the contraband images were
discovered by a computer technician who was not acting as an agent of the government and because the police officer’s subsequent viewing of the contraband images did not exceed the scope of the computer technician’s search, the private search doctrine applies and
Appellant’s constitutional privacy protections are not
implicated. 1
I. Background
The facts of this case, as revealed during the suppression hearing, are as follows. On November 25,
2015, Appellant delivered his laptop computer to
CompuGig, a computer repair shop. To obtain repair
services, Appellant was required to complete CompuGig’s intake form, which queried “What problems are
you experiencing?” and listed several alternatives.
Commonwealth Exhibit 1. Appellant marked the
boxes indicating “Spyware/virus” and “Can’t get to Internet.” Id. He also provided his computer login password. Id. Additionally, CompuGig’s administrative log
indicated that Appellant informed a CompuGig employee that his “son downloaded some things and now
As discussed in detail, infra, the High Court in United States v.
Jacobson, 466 U.S. 109 (1984), held that a search conducted by
private citizens is not protected by the Fourth Amendment. Any
additional invasion of privacy by the government must be examined by considering the degree to which the government exceeded
the private search. Id. at 115. This Court has acknowledged this
rule of law in relation to both the federal and state constitutions.
See Commonwealth v. Harris, 817 A.2d 1033, 1047 (Pa. 2002)
(recognizing that “[t]he proscriptions of the Fourth Amendment
and Article I, Section 8 do not apply to searches and seizures conducted by private individuals”).
1

3a
there are a lot of pop-ups. Internet has stopped working.” Commonwealth Exhibit 2, at 1.
After conducting diagnostic testing, CompuGig
technician Justin Eidenmiller believed that Appellant’s computer had a failing hard drive. Consistent
with CompuGig’s policy of contacting the customer for
approval if the service charges will exceed $160, an
administrative employee called Appellant on December 4, 2015, and Appellant consented to the replacement of the hard drive. 2 In an effort to replace the
hard drive, Eidenmiller attempted to “take an image
of the hard drive and put it on a new hard drive at the
customer’s request.” N.T., 7/7/2016, at 6. While Eidenmiller obtained an image of the hard drive, he was
unable to transfer that image successfully to a new
hard drive. 3 Id.
The next day, after several unsuccessful attempts
to transfer files from the hard drive, Eidenmiller continued his efforts to relocate the contents of the hard
The exact contents of this conversation are unknown as the administrative employee who called Appellant did not testify at the
suppression hearing. The record establishes, however, that Eidenmiller was told by CompuGig administration to continue
working on the laptop because Appellant had consented to replacing the hard drive. Notes of Testimony (“N.T.”), Suppression
Hearing, 7/7/2016, at 17-18. Further, CompuGig’s log indicated
“Called customer to explain that we must do an OS Rebuild with
data.” Commonwealth Exhibit 2, at 2.
2

CompuGig’s administrative log indicated a second communication between Appellant and CompuGig when, on November 30,
2015, Appellant had called CompuGig, purportedly to check on
the status of his repair, and was given a quote of $250.50 to cover
“New 500 Gig HDD,” “Reinstall image,” and “PE.” Commonwealth Exhibit 2, at 3. The log further indicated that Appellant
was in a rush to have the repair completed as he used the laptop
for his business. Id.
3

4a
drive to the new hard drive by manually opening each
individual folder and copying the contents. Id. at 7.
During this process, Eidenmiller observed thumbnail
images, i.e., small images reflecting the identify of a
computer file’s contents, revealing what he believed to
be sexually explicit photos of children. Id. at 7, 23-24.
Notably, Eidenmiller had not been searching for that
kind of information and had never been asked by law
enforcement to keep watch for evidence of child pornography. Id. at 7, 13. Eidenmiller informed his boss
of the images he discovered, and an administrative
employee of CompuGig contacted the police. Id. at 7.
Later that afternoon, Officer Christopher Maloney
of the Cranberry Township Police Department arrived
at CompuGig. The store owners advised Officer Maloney that technicians had found explicit images of
young girls on Appellant’s laptop and took the officer
to the room where Eidenmiller had been working on
the computer. Id. at 28. Officer Maloney asked to see
the images that Eidenmiller had found. Id. at 28-29.
Eidenmiller complied and showed Officer Maloney the
child pornography images he had discovered, using
the “exact route taken to find the images.” Id. at 9,
30. 4 Germane to this appeal, after viewing the images
that Eidenmiller displayed, Officer Maloney directed
Eidenmiller to “shut down the file” and seized the laptop, external hard drive copy, and power cord. Id. at
29.
On December 11, 2015, Detective Matthew Irvin of
the Cranberry Township Police Department went to
Appellant’s home and questioned him. Appellant adThe record does not disclose the precise number of images that
Eidenmiller found and displayed to Officer Maloney.
4

5a
mitted to having some images on his computer depicting children as young as eight years old in sexually
explicit positions and identified the folders where the
digital images were stored. Detective Irvin thereafter
obtained a search warrant for the laptop and accompanying hardware on December 15, 2015. 5 Id. at 31.
While the suppression record does not indicate when
the search warrant was executed, there is no evidence
suggesting that police conducted an independent
search of the files on Appellant’s laptop beyond what
was observed at CompuGig prior to obtaining the warrant.
On December 18, 2015, Detective Irvin met with
Appellant a second time and obtained a written inculpatory statement regarding the illegal images. The
following month, on January 21, 2016, a criminal complaint was filed against Appellant charging him with
sexual abuse of children (possession of child pornography), 18 Pa.C.S. § 6312(d), for possessing seventy-two
digital images, which depicted a child under eighteen
years of age engaging in a prohibited sexual act or in
the simulation of such act. The complaint also charged
Appellant with criminal use of a communication facility (laptop computer), 18 Pa.C.S. § 7512(a), for utilizing the internet to commit, cause or facilitate the commission of the felony of sexual abuse of children.
On May 27, 2016, Appellant filed a pretrial omnibus motion to suppress the contraband images discovered on the hard drive of his laptop computer. Acknowledging that a CompuGig employee had sum-

Detective Irvin did not testify at the suppression hearing; rather, Officer Maloney testified that Detective Irwin questioned
Appellant and subsequently obtained a search warrant.
5

6a
moned Officer Maloney to the establishment after discovering the illegal images, in his suppression motion,
Appellant asserted that an illegal search occurred at
the moment Officer Maloney directed the CompuGig
employee to open Appellant’s computer files and display the suspected contraband images that Eidenmiller had discovered, after which Officer Maloney
viewed the images and seized the laptop and the copy
of the external hard drive. 6 Defendant’s Omnibus Pretrial Motion, at ¶ 4, 8. Appellant maintained that Officer Maloney’s discovery of the evidence was neither
inadvertent nor involved exigent circumstances because the CompuGig employee had informed the officer that the illegal images were on the laptop and
that the laptop had been secured in the backroom of
the CompuGig facility. Under these circumstances,
Appellant submitted, Officer Maloney was required to
obtain a warrant before conducting a search of his
computer files.
Appellant further contended in his suppression
motion that this police conduct constituted a warrantless search of his laptop in violation of his reasonable
expectation of privacy, as well as a trespass upon his
property in violation of Article I, Section 8 of the Pennsylvania Constitution and the Fourth and Fourteenth
Amendments to the United States Constitution. Id. at
¶ 8. 7 Relevant here, Appellant argued that he did not
abandon his expectation of privacy in the files stored
on his laptop when he took the computer to CompuGig
Appellant did not challenge the chain of custody of his laptop in
his suppression motion or suggest that police searched the laptop
after seizing it at CompuGig, but before obtaining a warrant.

6

Appellant did not argue in his suppression motion that Article
I, Section 8 offers greater protection than the Fourth Amendment under the circumstances presented.
7

7a
for repair. He further argued that the incriminating
statements he made to police after this illegal search
and seizure were the fruit of the unlawful police conduct. Id. at ¶ 9. Accordingly, Appellant requested that
the trial court suppress the physical evidence seized
and all the fruits thereof.
In opposing Appellant’s suppression motion, the
Commonwealth did not specifically invoke the private
search doctrine. Instead, the Commonwealth took the
position that once Appellant gave his laptop to CompuGig for repairs, he abandoned his expectation of privacy in the computer files stored on the laptop. In support of this position, the Commonwealth relied upon
the Superior Court’s decision in Commonwealth v.
Sodomsky, 939 A.2d 363 (Pa. Super. 2007). As the parties’ arguments and the lower courts’ decisions revolve
around the Sodomsky decision, we shall examine that
case.
In Sodomsky, the defendant went to a Circuit City
store and requested the installation of an optical drive
and DVD burner onto his desktop computer. The defendant was informed that as part of the installation
process, the installer would have to make sure that
the DVD burner worked. The defendant did not inquire as to how operability of the DVD burner would
be determined. After the software was installed, a
computer technician performed a general search of
the defendant’s computer files for a video to test the
new DVD drive. During this general search, the technician observed titles of videos which appeared to be
pornographic in nature because their titles included
masculine first names, ages of either thirteen or fourteen, and sexual acts. The technician clicked on the
first video title that appeared questionable, and the
video contained the lower torso of an unclothed male

8a
and a hand approaching the male’s penis. The technician immediately stopped the video and contacted his
manager, who summoned the police.
The police arrived at the Circuit City store and
viewed the same video clip discovered by the technician. When the defendant arrived shortly thereafter
to retrieve his computer, the police informed him that
his computer was being seized because police suspected that it contained child pornography. The defendant responded that he knew what they had found
and that “his life was over.” Id. at 366. Police seized
the computer. After obtaining a warrant, the police
searched the computer and discovered child pornography. The defendant filed a motion to suppress the illegal images, which the trial court granted. The trial
court reasoned that the defendant retained a privacy
interest in the computer files as he did not expect the
computer’s contents to be published to anyone other
than Circuit City employees who were performing the
requested installation.
On appeal to the Superior Court, the issue was
whether the defendant’s “expectation of privacy in the
videos on the computer that he relinquished to Circuit
City employees for repairs was reasonable or whether
he knowingly exposed the computer’s video files to the
public such that he voluntarily abandoned his privacy
interest in them.” Id. at 367. The Sodomsky court examined the theory of abandonment in Pennsylvania,
acknowledging that “[w]hat a person knowingly exposes to the public, even in his own home or office, is
not a subject of Fourth Amendment protection. But
what he seeks to preserve as private, even in an area
accessible to the public, may be constitutionally protected.” Id. at 367 (quoting Katz v. United States, 389
U.S. 347, 351-52 (1967)).

9a
Emphasizing that abandonment is a question of intent that is dependent upon the facts and circumstances presented, the Sodomsky court concluded that
the defendant had no reasonable expectation of privacy in his illegal computer files. First, the court observed that the defendant requested the installation
of a DVD drive, that Circuit City employees informed
him that the drive’s operability would be tested, and
that the defendant did not inquire as to the manner of
testing or restrict the employees’ access to his computer files. Sodomsky, 939 A.2d at 368. The court concluded that the defendant “should have been aware
that he faced a risk of exposing the contents of his illegal video files.” Id.
Although not characterizing the initial search as a
private one, the Sodomsky court found it critical that
when the child pornography was discovered, the computer technicians were testing the “drive’s operability
in a commercially-accepted manner” and were not
searching for contraband. Id. The court further emphasized the voluntary nature of the defendant’s actions in leaving his computer at the store without deleting the child pornography videos or altering the
videos’ illicit titles. Id. at 369.
The Superior Court distinguished the Sodomsky
case from Commonwealth v. DeJohn, 403 A.2d 1283
(Pa. 1979), where this Court held that a bank could
not submit a customer’s bank records to the police absent a search warrant because one’s disclosure of financial records to a bank was not entirely volitional
as one cannot participate in the economic life of contemporary society without a bank account. To the contrary, the court held that the defendant in Sodomsky
was not compelled to take his computer to Circuit City
for repair and could have elected to leave the store

10a
with the computer after being informed that the DVD
burner’s operability would be examined, instead of
risking discovery of the illegal images. Sodomsky, 939
A.2d at 369. The court concluded that because the defendant abandoned his privacy interest in the child
pornography videos on his computer, he could not object to the subsequent viewing of the video list and file
by police. Id.
Finally, the Sodomsky court rejected the defendant’s contention that the seizure of the computer was
improper absent a warrant. The court held that the
plain view exception to the warrant requirement applied because the police had been invited to the repair
center in Circuit City, the videos were not obscured
and could be readily seen from that location, the incriminating nature of the video files was immediately
apparent based on the graphic titles assigned to the
videos, and the police had the lawful right to access
the videos because the defendant had abandoned any
reasonable expectation of privacy in them. 8 Id. at 370.
Returning to the instant case, at the suppression
hearing on July 7, 2016, two witnesses, Eidenmiller
and Officer Maloney, testified to the aforementioned
facts. The parties’ arguments focused exclusively
upon the applicability of the Sodomsky decision. Following the hearing, the trial court denied Appellant’s
suppression motion, finding that the present facts
were similar enough to render Sodomsky controlling.
Trial Court Opinion, 10/3/2016, at 7. While the trial
Judge Colville filed a concurring opinion in which he opined
that he would not engage in a plain view analysis as the defendant’s challenge fails because he lacked a reasonable expectation
of privacy in the videos stored on his computer after he delivered
the computer to Circuit City.

8

11a
court did not agree with the Commonwealth that under Sodomsky Appellant abandoned his expectation of
privacy in his computer files as soon as he delivered
the laptop for repair, the court held that Appellant
abandoned his expectation of privacy when he requested repairs on his computer related to complaints
of a virus and an inability to use the Internet and consented to the replacement of his hard drive.
The trial court found that the instant circumstances would “obviously lead a person to conclude
that CompuGig was likely to perform work related to
the hard drive and the files contained on it [and that
Appellant] was or should have been aware that he
faced a risk of exposing the files contained thereon, as
was the case in Sodomsky.” Id. at 9. Also similar to
Sodomsky, the trial court held that when the images
of child pornography were discovered, the CompuGig
technician was not conducting a search for illicit
items, but was attempting to transfer the files from
Appellant’s hard drive to a new drive. Id. The court
further opined that Appellant’s actions in delivering
his laptop to CompuGig for repairs and consenting to
the replacement of the laptop’s hard drive were voluntary and were not required for Appellant to function
in society, distinguishing the case from this Court’s
decision in DeJohn. Id. at 9-10.
Concluding that Appellant abandoned his privacy
interest in the files at issue, the trial court found that
he could not object to the subsequent viewing of the
files by police as Officer Maloney properly seized the
laptop under the plain view exception to the warrant
requirement. Id. at 10. The court reasoned that Officer Maloney was lawfully at the CompuGig store at
the invitation of the store’s owners, the computer and
files were not obscured and could be plainly seen from

12a
that location, the incriminating nature of the files was
readily apparent, and Officer Maloney had a lawful
right of access to the computer files because Appellant
had abandoned his privacy interest in them. Id. at 10.
The trial court further rejected Appellant’s challenge to the search and seizure of his computer based
upon a trespass analysis, concluding that Eidenmiller
was engaged in conduct permitted by Appellant when
the files were discovered; thus, he was not trespassing
on Appellant’s effects. Id. at 10. Relevant here, the
trial court emphasized that Officer Maloney never expanded upon Eidenmiller’s actions, but merely viewed
the images that Eidenmiller presented to him. Id. at
11.
On November 10, 2016, the trial court, sitting as
finder of fact, found Appellant guilty of both charges
(possession of child pornography and criminal use of a
communication facility) and subsequently sentenced
him to an aggregate six to twelve months of incarceration, followed by 156 months of probation. Appellant
appealed his judgment of sentence to the Superior
Court, raising the single issue of whether the trial
court erred in failing to suppress evidence from the
warrantless search and seizure of his laptop. As it did
before the trial court, the Commonwealth again contended that the Sodomsky decision was controlling,
while Appellant maintained that Sodomsky was distinguishable or, in the alternative, should be overturned.
The Superior Court affirmed Appellant’s judgment
of sentence in a published decision. Commonwealth v.
Shaffer, 177 A.3d 241 (Pa. Super. 2017). Initially, the
court declined Appellant’s invitation to overrule Sod-

13a
omsky, finding that such action should be taken by either an en banc panel of the Superior Court or this
Court. Id. at 246. Further, the Superior Court was unpersuaded by Appellant’s attempt to distinguish Sodomsky on the ground that it was unforeseeable that
the technician replacing his hard drive would have
been unable to take an image of the entire hard drive,
causing him to copy Appellant’s files manually from
the old hard drive to the new one, thereby exposing
his illicit photographs.
The court emphasized that in Sodomsky, the defendant made a similar contention, alleging that he
was unaware that the technician intended to run a
test on the new DVD drive using a video from the defendant’s hard drive. In both cases, the Superior Court
reasoned, the defendants did not inquire as to how the
repair procedure would be executed or restrict in any
way the computer technician’s access to the illegal
files. Id. The Superior Court further noted that in both
cases the computer technicians were completing repairs in a commercially-accepted manner and were
not conducting a search for illicit items when they inadvertently discovered the child pornography. Id. at
247. The court concluded that any factual distinctions
between the two cases favored the denial of suppression in the instant case as Appellant was informed
that CompuGig needed to transfer all of his files and
the illicit images appeared obviously in thumbnail images when Eidenmiller opened a folder on the hard
drive. Id. Accordingly, the Superior Court concluded
that, like the defendant in Sodomsky, Appellant abandoned his expectation of privacy in the contents of his
computer files; thus, the trial court did not err in
denying his motion to suppress.

14a
As noted, this Court granted allowance of appeal
to determine whether the Superior Court erred in determining that Appellant abandoned his expectation
of privacy in child pornography files stored on his computer under the facts presented.
II. The Parties’ Arguments
Appellant contends that the trial court erred in
denying suppression of the physical evidence obtained
from his laptop and his resulting confessions because
such evidence was obtained without a warrant or consent and in the absence of exigent circumstances,
thereby violating his right against unreasonable
searches and seizures under both Article I, Section 8
of the Pennsylvania Constitution and the Fourth
Amendment to the United States Constitution. 9, 10 Appellant acknowledges that for these constitutional
The Fourth Amendment to the United States Constitution provides that “[t]he right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place to be searched, and the persons or
things to be seized.” U.S. CONST. amend. IV.
9

Article I, Section 8 of the Pennsylvania Constitution provides
that “[t]he people shall be secure in their persons, houses, papers
and possessions from unreasonable searches and seizures, and
no warrant to search any place or to seize any person or things
shall issue without describing them as nearly as may be, nor
without probable cause, supported by oath or affirmation subscribed to by the affiant. PA. CONST. art. I, § 8.
Appellant does not contend in his brief to this Court that Article I, Section 8 of the Pennsylvania Constitution offers any
greater protection than the Fourth Amendment. Accordingly, we
assume for purposes of argument that both provisions offer the
same protection under the circumstances presented.
10

15a
protections to apply, the citizen must first establish a
subjective expectation of privacy in the area searched
or the effects seized and must demonstrate that the
expectation is one that society is prepared to recognize
as reasonable. Brief for Appellant, at 9. He posits,
however, that one cannot abandon his reasonable expectation of privacy unless he does so with intent or
where it is reasonably foreseeable to him that his actions will relinquish his privacy to others.
Appellant maintains that he did not intend to relinquish his reasonable expectation of privacy in his
computer files when he took his laptop to CompuGig
for enumerated repairs. Further, he submits, it was
not reasonably foreseeable that his private computer
files would be accessed by CompuGig employees. Appellant explains that only a “convoluted chain of
events” prompted discovery of the illegal images as Eidenmiller determined that his laptop’s hard drive was
failing, attempted to copy the entire hard drive to a
new drive using particular software, and was ultimately forced to copy folders onto the new hard drive
manually. Brief for Appellant, at 10. He asserts that
it was not until Eidenmiller was unable to copy some
of the folders that the individual files were opened for
copying purposes, thereby revealing the contraband
images.
Appellant contends that if this scenario is interpreted as being reasonably foreseeable, he cannot imagine an instance where one would retain a reasonable expectation of privacy in his computer files when
the computer is taken to a commercial establishment
for repair. Emphasizing one’s general inability to repair a broken computer, Appellant likens his case to
Commonwealth v. DeJohn, supra, where this Court
held that one does not lose his reasonable expectation

16a
of privacy when he discloses financial records to his
bank because disclosure of these records is not entirely volitional, considering that one cannot participate in the economic life of contemporary society without a bank account. He asserts that the same is true
for personal computers.
Regarding the application of the Superior Court’s
decision in Sodomsky, Appellant neither expressly requests that we overrule that decision nor distinguishes that case from the facts presented. He offers
only his opinion that the Sodomsky finding of an abandoned expectation of privacy was based, in part, on the
defendant’s failure to ask the right questions at the
computer repair shop. In Appellant’s view, “the vast
majority of people in our society do not understand
computers enough to ask the right questions.” Brief
for Appellant, at 14. He maintains that other jurisdictions have decided cases in a manner consistent with
his position. See U.S. v. Barth, 26 F.Supp.2d 929
(W.D. TX. 1998) (suppressing evidence found on computer given to a technician for repair on grounds that
the defendant retained his expectation of privacy
where he gave his computer for the limited purpose of
repairing a problem unrelated to the contraband files
recovered and where the police search of the computer
exceeded the scope of the search conducted by the
technician); State v. Cardwell, 778 S.E.2d 483 (S.C.
Ct. of App. 2015) (disagreeing with the proposition
that one has no concept of privacy in a computer and
data contained therein when one voluntarily gave the
computer to a technician for repair).
Further, while acknowledging that the case is not
dispositive, Appellant cites the United States Supreme Court’s decision in Riley v. California, 134 S.
Ct. 2473 (2014), which held that when police lawfully

17a
seize a cell phone in a search incident to arrest, they
must obtain a search warrant prior to accessing the
contents of the cell phone because cell phones contain
an abundance of private information and, accordingly,
deserve more stringent privacy safeguards. Appellant
suggests that because a laptop may contain even more
private material than a cell phone, this Court should
follow the trend in the law to respect a citizen’s privacy in personal data in the computer age.
In response, the Commonwealth first takes the
broad position that citizens relinquish their expectation of privacy in closed computer files once they take
the computer to a commercial establishment for repair. Based on the theory of abandonment espoused in
Sodomsky, it submits that when one takes a computer
to a commercial repair shop, the individual voluntarily relinquishes control over the computer’s contents
to the technician who is a member of the public. Regardless of what type of repairs are necessary, the
Commonwealth asserts, the individual has complete
control over what he exposes as he can delete private
files prior to the repair or limit the technician’s access
to folders or files on the computer. When the individual does not choose to protect his privacy interest and
instead simply hands over his computer to a commercial establishment, the Commonwealth asserts that
there is an abandonment of any reasonable expectation of privacy.
The Commonwealth refutes Appellant’s argument
that private files on a laptop are analogous to financial records disclosed to a bank. Unlike in DeJohn,
where this Court held that the relinquishment of bank
records was not voluntary because one needs a bank
account to function in today’s society, the Commonwealth reiterates that one retains control over what

18a
one exposes to a computer repair shop. See Brief for
Appellee, at 10 (citing Sodomsky, 939 A.2d at 369
(holding that “[c]ontrary to the circumstances in
DeJohn, supra, where a person has little choice but to
retain bank accounts in order to function in society,
Appellee was not compelled to take this particular
computer containing child pornography to the store in
the first instance, nor was he forced to leave it there
after being informed that the burner’s operability
would be checked”)).
The Commonwealth further distinguishes the
High Court’s decision in Riley, supra, which held that
police cannot search the contents of a cell phone incident to an arrest without a warrant. It argues that
Riley has no application to the instant appeal, which
is not focused upon the immense amount of information a computer can store but, rather, on the abandonment of a reasonable expectation of privacy by
knowingly exposing personal data to the public.
In the event this Court rejects its broad proposition
that one abandons his expectation of privacy each
time he takes a computer for repair, the Commonwealth alternatively argues that Appellant abandoned his expectation of privacy under the particular
facts presented. It contends that Appellant knew that
CompuGig technicians would access his files as he disclosed his computer password to the commercial establishment, authorized it to run diagnostics, was informed that CompuGig needed to do an “OS rebuild
with data,” and consented to the replacement of his
hard drive. The Commonwealth points out that Appellant was not obligated to have the repairs completed,
and was free to leave or retrieve his computer at any
time. It asserts that there is no evidence that Appel-

19a
lant attempted to keep the files at issue private, considering that he did not remove the contraband files
from his computer, did not indicate that there was valuable or private data on the computer, and did not restrict CompuGig's access to the computer in any way.
Thus, the Commonwealth asserts, the record
demonstrates that Appellant knowingly and voluntarily granted CompuGig access to his computer files,
thereby exposing them to the public and extinguishing his reasonable expectation of privacy. The Commonwealth maintains that other jurisdictions have
reached similar results. Brief for Appellee, at 19-21
(citing State v. Horton, 962 So. 2d 469 (La. App. 2d
Cir. 2007) (holding that the defendant relinquished
his reasonable expectation of privacy when he brought
his computer to a commercial establishment to have a
hard drive installed and his illicit images of child pornography were in a default file, which automatically
opened and displayed the unlawful photos to the computer technician); Rogers v. State, 113 S.W.3d. 452
(Tex. App. San Antonio 2003) (holding that although
the defendant had a privacy interest in his computer
hard drive, he did not have complete dominion or control over the files because he had voluntarily relinquished control to the computer repair store and did
not take normal precautions to protect his privacy
when he expressly directed the computer repair technician to back up the jpeg files)).
Finally, the Commonwealth discusses the private
search doctrine. See Brief for Appellee at 17 (citing
United States v. Jacobsen, 466 U.S. 109 (1984), for the
proposition that under the private search doctrine, if
an individual conducts a search of another’s belongings, the police may replicate that search because the

20a
reasonable expectation of privacy has been extinguished with respect to that object or container). Acknowledging that police are limited by, and may not
exceed, the scope of the private search, the Commonwealth contends that the record here is clear that the
police did not exceed the private search. It submits
that when Eidenmiller opened the folder containing
the illicit photos, they were displayed as larger
thumbnails and when Officer Maloney asked to see
the images found, he viewed the identical thumbnails
that the private search had already revealed.
The Commonwealth finds the Sixth Circuit Court
of Appeals’ decision in United States v. Lichtenberger,
786 F.3d 478 (6th Cir. 2015), instructive as it addresses application of the private search doctrine in a
case involving the search of digital information. In
Lichtenberger, the defendant's girlfriend hacked into
his computer using a password recovery program, discovered a folder containing child pornography, and informed police of her discovery. The Sixth Circuit Court
of Appeals held that there was no Fourth Amendment
violation when police viewed the images that the private searcher had viewed because the reasonable expectation of privacy was already frustrated with respect to those images. However, the court held that a
subsequent search by police was unlawful because the
police exceeded the scope of the prior private search,
thereby violating the Fourth Amendment. The Commonwealth reiterates that because the police in no
way exceeded the scope of Eidenmiller’s private
search here, there is no Fourth Amendment violation.
According to the Commonwealth, no federal circuit
court has found that the private search doctrine is inapplicable to digital containers. Brief of Appellee, at
19 (citing U.S. v. Tosti, 733 F.3d 816 (9th Cir. 2013);

21a
Rann v. Atchison, 689 F.3d 832 (7th Cir. 2012); and
U.S. v. Runyan, 275 F.3d 449 (5th Cir. 2001)).
In his reply brief, Appellant asserts that the Commonwealth relies upon the private search doctrine in
its brief to this Court for the first time in this litigation. He contends that the Commonwealth cites no
Pennsylvania case law in support of this doctrine because there is none. Appellant urges this Court not to
adopt the private search doctrine as a part of Pennsylvania jurisprudence because there is no record made
in the instant case regarding the extent of the private
search as compared to the scope of the subsequent police search. Finally, he maintains that the private
search doctrine offers the Commonwealth no relief
from the warrantless seizure of Appellant’s laptop.
III. Analysis
A. Standard/Scope of Review
An appellate court’s standard of reviewing the denial of a suppression motion is limited to determining
whether the suppression court’s factual findings are
supported by the record and whether the legal conclusions drawn from those facts are correct. Commonwealth v. Yandamuri, 159 A.3d 503, 516 (Pa. 2017).
Thus, our review of questions of law is de novo. Id. Our
scope of review is to consider only the evidence of the
Commonwealth and so much of the evidence for the
defense as remains uncontradicted when read in the
context of the suppression record as a whole. Id.
B. Private Search Doctrine
We examine first the Commonwealth’s assertion
regarding applicability of the private search doctrine
because if we determine that the doctrine applies, that

22a
conclusion would be dispositive of the appeal. 11 The
doctrine is illustrated in the United States Supreme
Court’s seminal decision in United States v. Jacobson,
supra. There, employees of a private freight carrier
opened a cardboard package that had been damaged
by a forklift and found a closed ten-inch tube wrapped
in newspaper. Consistent with company policy regarding insurance claims, the employees cut open the tube
to examine its contents and found several plastic bags
containing a white powder. By the time a Drug Enforcement Administration (“DEA”) agent was summoned, the employees had returned the plastic bags
to the tube and replaced the tube in the box. Upon arrival, the DEA agent removed the tube from the box,
removed the plastic bags from the tube, field tested
the powder to determine if it was cocaine, and concluded that it was. Additional agents subsequently arrived, conducted a second field test, and obtained a
warrant to search the mailing address listed on the
package.
After being indicted on drug charges, the defendants filed a motion to suppress the evidence recovered
from the package, contending that the warrant was
the product of an illegal search and seizure. The district court denied suppression. The Court of Appeals
reversed, holding that a warrant was required because the testing of the powder constituted a significant expansion of the earlier private search.
Any determination of whether Appellant retained a reasonable
expectation of privacy in his laptop when he consented to the replacement of his hard drive presumes that it was the government
who invaded his privacy by conducting the search. As explained
infra, once it is determined that the search was conducted absent
state action, the inquiry becomes whether the police exceeded the
scope of the private search.
11

23a
The High Court reversed, holding that “the federal
agents did not infringe any constitutionally protected
privacy interest that had not already been frustrated
as a result of private conduct.” Jacobsen, 466 U.S. at
126. The Court explained that “[t]o the extent that a
protected possessory interest was infringed, the infringement was de minimis and constitutionally reasonable.” Id. Acknowledging that the Fourth Amendment protects against both unreasonable searches
and seizures, the Court defined a “search” as occurring “when an expectation of privacy that society is
prepared to consider reasonable is infringed.” Id. at
113. It defined a “seizure” of property as occurring
“when there is some meaningful interference with an
individual’s possessory interests in that property.” Id.
The Court proceeded to explain that this constitutional protection proscribed only governmental action
and was wholly inapplicable “to a search or seizure,
even an unreasonable one, effected by a private individual not acting as an agent of the Government or
with the participation or knowledge of any government official.” Id. (citation omitted).
Categorizing the package as an “effect” in which an
individual has a reasonable expectation of privacy, the
Court observed that a warrantless search of the package would be presumptively unreasonable. Id. at 114.
However, the Court opined, “the fact that agents of the
private carrier independently opened the package and
made an examination that might have been impermissible for a government agent cannot render otherwise
reasonable official conduct unreasonable.” Id. at 11415. Accordingly, because the initial invasion of the
package was accomplished by private action, the
Court held that the Fourth Amendment was not vio-

24a
lated, regardless of whether the private action was accidental, deliberate, reasonable, or unreasonable. Id.
at 115.
Significantly, the High Court explained that the
additional invasions of privacy by the government
agent “must be tested by the degree to which they exceeded the scope of the private search.” Id. (citing Walter v. United States, 447 U.S. 649 (1980)). The Court
observed that “[t]he Fourth Amendment is implicated
only if the authorities use information with respect to
which the expectation of privacy has not already been
frustrated.” Id. at 117. The High Court construed the
governmental actions as twofold, first removing the
contraband from its packaging and viewing it, and,
second, conducting a chemical test of the powder. Id.
at 118.
Regarding the government agent’s reopening of
the package after having been told by the employees
that it contained a white powder, the Court emphasized that “there was a virtual certainty that nothing
else of significance was in the package and that a
manual inspection of the tube and its contents would
not tell him anything more than he already had been
told.” Id. at 119. As the government could use the employees’ testimony regarding the contents of the package, the Court found that “it hardly infringed [the defendants’] privacy for the agents to re-examine the
contents of the open package by brushing aside a
crumpled newspaper and picking up the tube.” Id. The
Court observed that this governmental action did not
further infringe upon the defendants’ privacy, but rather merely avoided the risk of a flaw in the employees’ recollection. Id. The High Court held that the defendants “could have no privacy interest in the contents of the package, since it remained unsealed and

25a
since the Federal Express employees had just examined the package and had, of their own accord, invited
the federal agent to their offices for the express purpose of viewing its contents.” Id. It concluded that the
DEA agent’s observation of what a private party had
voluntarily made available for his inspection did not
violate the Fourth Amendment. Id.
In the same vein, the Court ruled that the removal
of the plastic bags from the tube and the visual inspection of the contents provided the agent with no more
information than what had been discovered during
the private search. Thus, the High Court opined, the
agent’s actions “infringed no legitimate expectation of
privacy and hence was not a ‘search’ within the meaning of the Fourth Amendment.” Id. at 120. Notably,
the Court explained that while the agent’s assertion
of dominion and control over the package and its contents constituted a “seizure,” the seizure was not unreasonable because the privacy interest in the package had already been compromised, as it had been
opened and remained unsealed and because the agent
had been specifically invited to examine the package’s
contents. Id. at 120-21. The Court ruled that “since it
was apparent that the tube and plastic bags contained
contraband and little else, this warrantless seizure
was reasonable, for it is well settled that it is constitutionally reasonable for law enforcement officials to
seize ‘effects’ that cannot support a justifiable expectation of privacy without a warrant, based on probable
cause to believe they contain contraband.” Id. at 12122.
The High Court proceeded to examine whether the
agent’s additional intrusion, occasioned by the field
test of the white powder, exceeded the scope of the private search. The Court answered this inquiry in the

26a
negative, finding that the chemical test that merely
disclosed whether a substance is cocaine did not compromise any legitimate interest in privacy as one cannot legitimately have a privacy interest in cocaine, an
illegal substance. Id. at 123. The Court concluded that
because only a trace amount of the material was involved and because the property had been lawfully detained, “the ‘seizure’ could, at most, have only a de
minimis impact on any protected property interest.”
Id. at 125. Because the safeguards of a warrant would
only minimally advance Fourth Amendment interests, the court concluded that the warrantless “seizure” was reasonable. Id.
Contrary to Appellant’s assertion in his reply brief,
there is ample support for the private search doctrine
in Pennsylvania jurisprudence. This Court in Commonwealth v. Harris, 817 A.2d 1033, 1047 (Pa. 2002),
acknowledged that “[t]he proscriptions of the Fourth
Amendment and Article I, § 8, do not apply to searches
and seizures conducted by private individuals.” We
explained that the admission of incriminating letters
that had been taken by a private individual and
turned over to police did not implicate the Fourth
Amendment or Article I, Section 8, because those provisions concern only governmental searches and seizures. Id. at 1046. In addition to citing the federal authority discussed supra, we relied upon this Court’s
previous decision in Commonwealth v. Corley, 491
A.2d 829 (Pa. 1985), which held that the exclusionary
rule did not apply to a citizen’s arrest because there
was no state action. We explained that “[a]t the core
of the reasoning underlying this refusal to extend application of the exclusionary rule to private searches
is the concept of ‘state action,’ the understanding that
the Fourth Amendment operates only in the context

27a
of the relationship between the citizen and the state.”
Harris, 817 A.2d at 1047 (quoting Corley, 491 A.2d at
831).
In any event, while Appellant has claimed
throughout this litigation that the unlawful search
and seizure of his laptop violated both the Fourth
Amendment and Article I, Section 8, he has not presented any claim that Article I, Section 8 provides
greater protection to abandoned property or that our
state counterpart to the Fourth Amendment should
extend constitutional privacy protections to private
searches under the circumstances here present. Thus,
we analyze the case under Fourth Amendment jurisprudence.
C. Application of Private Search Doctrine
Initially, we readily acknowledge that the Commonwealth did not assert the private search doctrine
during the suppression hearing and that the parties’
arguments instead focused upon whether Appellant
had a reasonable expectation of privacy in his laptop
when he took the computer to CompuGig for repairs
and consented to the replacement of his hard drive.
However, we should not ignore governing Fourth
Amendment jurisprudence by treating a private
search, which is not entitled to constitutional protection, as though it were conducted by a government
agent. Moreover, throughout this litigation, the Commonwealth was the nonmoving party or appellee and
had no obligation to preserve the issue of whether the
private search doctrine applied. See Rufo v. Bd. of License & Inspection Review, 192 A.3d 1113, 1123 (Pa.
2018) (observing that appellees have no obligation to
preserve issues). As demonstrated infra, we further

28a
disagree with Appellant that the record is inconclusive as to whether the requisites of the doctrine are
satisfied.
Pursuant to Jacobson, our inquiry is two-fold: (1)
whether the facts presented establish that a private
search was conducted; and, if so, (2) whether the police actions exceeded the scope of the private search.
Jacobsen, 466 U.S. at 115. Regarding the private nature of the search, we reiterate that Appellant took his
laptop to CompuGig for repairs, disclosed his password, and authorized the replacement of his hard
drive. While transferring files from the old hard drive
to the new one, Eidenmiller discovered the thumbnail
images of child pornography. Appellant does not contend that Eidenmiller was in any way acting in concert with law enforcement when this occurred. In fact,
Eidenmiller expressly testified at the suppression
hearing that he had not been searching for illicit information and had never been asked by law enforcement to keep watch for evidence of child pornography.
N.T., 7/7/2016, at 7, 13.
After discovering the contraband images, Eidenmiller then reported the child pornography to his
supervisor, and a CompuGig administrative employee
contacted the police. Id. at 7. In response, Officer
Maloney proceeded to the CompuGig facility. The
store owners then reiterated that Eidenmiller had
found explicit images of young girls on Appellant’s
laptop and led Officer Maloney back to the computer
repair room where Eidenmiller was located. Id. at 28.
Officer Maloney then asked Eidenmiller to show him
what he had found. The relevant testimony in this regard provides:

29a
PROSECUTOR:

OFFICER MALONEY:

What happened when
you got to where the computer was?
I spoke with the technician that found the
items on the computer.

PROSECUTOR:

Mr. Eidenmiller?

OFFICER MALONEY:

Yes, Ma’am.

PROSECUTOR:

And what was that conversation?

OFFICER MALONEY:

I asked him what kind of
images that he saw, what
was on the computer,
and I also asked him if he
could show me what the
images were.

PROSECUTOR:

Did he do so?

OFFICER MALONEY:

Yes.

PROSECUTOR:

Did you view those images?

OFFICER MALONEY:

I did, yes.

PROSECUTOR:

And what were the images that you viewed?

OFFICER MALONEY:

The images that I saw
were of young females
under the age of eighteen, some of them were
under the age of I would
say thirteen and sexually
explicit positions.

30a
PROSECUTOR:

And once you viewed
those what did you do?

OFFICER MALONEY:

I had them shut down
the file, and I asked him
if there was anything
else that needed to be
done or anything else
that he has and I seized
everything.

N.T., 7/7/2016, at 29. 12
On cross-examination, defense counsel asked Officer Maloney whether Eidenmiller had to “do some
clicking around to access the file.” Id. at 30. Officer
Maloney responded in the affirmative. Id. Defense
counsel then inquired as to whether Eidenmiller
opened the file at Officer Maloney’s request. Id. Officer Maloney replied, “Yes, sir, he showed me the exact route taken to find the images.” Id.
It has been Appellant’s contention throughout
these proceedings that when Officer Maloney requested to see the images that Eidenmiller had found
while trying to repair Appellant’s laptop, an illegal
governmental search ensued in violation of his constitutional rights to privacy. Consistent with the High
Court’s decision in Jacobsen, we find this position unpersuasive as it ignores the context of Officer Maloney’s request and the fact that CompuGig invited the
Officer Maloney explained that he seized Appellant’s laptop,
an external hard drive containing a copy of Appellant’s hard
drive, and the power cord. Id. at 31. Eidenmiller corroborated Officer Maloney’s testimony regarding the conversation that occurred between the two men. See id. at 26 (responding in the affirmative when asked whether Officer Maloney asked Eidenmiller to display what he had found).

12

31a
officer into the establishment to view the very contraband that Officer Maloney asked Eidenmiller to disclose. See Jacobsen, 466 U.S. at 119 (explaining that
because the government could use the employees’ testimony regarding the contents of the package, it
“hardly infringed upon [the defendants’] privacy for
the agents to re-examine the contents of the open
package by brushing aside a crumpled newspaper and
picking up the tube;” thus, this governmental action
did not further infringe upon the defendants’ privacy,
but rather merely avoided the risk of a flaw in the employees’ recollection). The Jacobsen Court explained
that the defendants “could have no privacy interest in
the contents of the package, since it remained unsealed and since the Federal Express employees had
just examined the package and had, of their own accord, invited the federal agent to their offices for the
express purpose of viewing its contents.” Id. at 119.
Like the High Court in Jacobsen, we conclude that
Officer Maloney’s observation of what Eidenmiller
voluntarily made known to him for his inspection after Officer Maloney was invited to the premises for the
express purpose of viewing the contraband did not violate the Fourth Amendment because the private actor’s viewing of the images extinguished Appellant’s
reasonable expectation of privacy in the images of
child pornography. Thus, the subsequent police viewing of the contraband was not a “search” under the
Fourth Amendment. See Coolidge v. New Hampshire,
403 U.S. 443, 489 (1971) (providing that when a private actor of her own accord produced evidence such
as guns and clothes for police inspection, “it was not
incumbent on the police to stop her or avert their
eyes”); Corely, 491 A.2d at 832 (holding that the acts

32a
of an individual do not “become imbued with the character of ‘state action’ merely because they are in turn
relied upon and used by the state in furtherance of
state objectives”). In other words, by the time Officer
Maloney viewed the illegal images, Appellant’s expectation of privacy in them had already been compromised by Eidenmiller’s examinations of the otherwise
private information stored in Appellant’s computer
files.
We next examine whether Officer Maloney’s viewing of the images exceeded the search conducted by
Eidenmiller. This inquiry is easily determined by the
same passage of the suppression hearing testimony
cited above. Officer Maloney testified that Eidenmiller showed him “the exact route taken to find the images,” id., at 30, and that after viewing the images,
Officer Maloney directed Eidenmiller to shut down
the computer. Id. at 29. The record supports the suppression court’s finding that Officer Maloney never expanded upon Eidenmiller’s actions, but merely viewed
the images that Eidenmiller presented to him. Trial
Court Opinion, 10/3/2016, at 11.
Accordingly, Officer Maloney did not exceed the
scope of Eidenmiller’s private search. As in Jacobsen,
Officer Maloney’s actions infringed upon no legitimate
expectation of privacy and, hence, were not a “search”
within the meaning of the Fourth Amendment. Also
as in Jacobsen, Officer Maloney’s assertion of dominion and control over Appellant’s laptop, which contained the contraband images, constituted a “seizure,”
although it was not an unreasonable one as the privacy interest in the contraband images, the only information from the laptop revealed to the officer, had already been compromised by the private search. It

33a
should not be ignored that police subsequently obtained a warrant to view the remaining files on Appellant’s laptop. See N.T., 7/7/2016, at 31 (providing that
ten days after seizing Appellant’s laptop, the police obtained a search warrant). As noted, supra at note 6,
Appellant does not suggest that the police independently reviewed the remaining files on Appellant’s
laptop computer at a time prior to obtaining the warrant.
While not binding on this Court, we find persuasive the decisions of the federal circuit courts of appeals that have applied the Jacobson construct to the
private search of a computer in a similar manner. To
illustrate, in United States v. Lichtenberger, supra,
the defendant’s girlfriend hacked into his computer,
discovered thumbnail images of adults engaging in
sexual acts with minors, and contacted the police.
When an officer arrived at the residence, the girlfriend informed him that she hacked the computer belonging exclusively to the defendant and found child
pornography. As occurred in the instant appeal, the
officer then asked the girlfriend to show him what she
had discovered. Unlike the instant case, however, the
girlfriend displayed to the officer not only the images
that she had recovered during the private search, but
also displayed additional images of child pornography.
The officer then directed the girlfriend to shut down
the computer and seized it.
The defendant was later indicted on charges of
child pornography and moved to suppress all evidence
obtained pursuant to the officer’s warrantless review
of the laptop. The defendant contended that when the
officer directed the girlfriend to show him what she
had found, the girlfriend had become an agent of the

34a
government rendering the search impermissible under the Fourth Amendment. The government countered that the Officer’s review of the images was valid
under the private search doctrine as set forth in Jacobson. The district court granted the defendant’s suppression motion.
The Sixth Circuit Court of Appeals affirmed the
district court’s order granting suppression, but did so
based only on the second prong of the Jacobsen test,
finding that the police exceeded the scope of the private search. As an initial matter, the court concluded
that the private search doctrine applied because the
defendant’s girlfriend acted solely as a private citizen
when she searched the defendant’s computer, invited
the officer into the residence, and showed the officer
what she had found. Pursuant to Jacobsen, the Court
of Appeals agreed with the district court that the case
presented an “after-the-fact confirmation of a private
search.” Id. at 484.
The Court of Appeals in Lichtenberger viewed the
next inquiry under Jacobsen as whether the officer’s
search remained within the scope of the private
search. Id. at 485. The court acknowledged how
“searches of physical spaces and the items they contain differ in significant ways from searches of complex electronic devices under the Fourth Amendment.” Id. at 487 (referencing Riley v. California, supra). The court reasoned that the magnitude of private information retained in a computer manifested
itself in Jacobsen’s requirement that the officer has to
proceed with “virtual certainty” that the inspection of
the laptop and its contents would not tell the police
anything more than they had already learned from
the individual who conducted the private search. Id.
at 488. Stated differently, when the governmental

35a
viewing is limited to the scope of the private search,
the magnitude of confidential files and information
contained in one’s computer is protected from the prying eyes of the government unless and until a warrant
is obtained. Absent a warrant, the government may
view only those files that were disclosed pursuant to
the private search.
The Lichtenberger court found that this requirement was not satisfied because the officer admitted
that he may have asked the girlfriend to open files
that she had not previously opened during her private
search. Id. Finding a lack of certainty that the officer’s
review was limited to the photographs discovered during the girlfriend’s earlier private search, the Court of
Appeals held that there was a real possibility that the
officer exceeded that search and could have discovered
other information on the defendant’s laptop that was
private, such as bank statements or personal communications unrelated to the allegations prompting the
search. The court concluded that this discovery was
precisely what the Jacobsen decision sought to avoid
in articulating its beyond-the-scope test. Id. at 488-89.
The Lichtenberger court asserted that it was not
alone in its approach to these modern considerations
under the Fourth Amendment, as other circuit courts
have placed a similar emphasis on “virtual certainty”
in their application of Jacobsen to searches of contemporary electronic devices. Id. at 489-91 (citing United
States v. Runyan, supra (holding that, under Jacobsen, police did not exceed the private search of defendant’s computer disks where his ex-wife had privately
searched them and found child pornography, but did
exceed the scope of the private search when police examined disks not viewed during that private search as
police had no “substantial certainty” regarding their

36a
contents); Rann v. Atchison, supra (applying Jacobsen
to a subsequent police viewing of privately searched
digital storage devices such as a memory card and
computer zip drive that the victim of child pornography and her mother provided to police, and holding
that police did not exceed the private search as they
were “substantially certain” that the devices contained child pornography based upon the statements
of the private parties); United States v. Tosti, supra
(upholding an officer’s viewing of contraband under
Jacobsen where the computer technician repairing the
defendant’s computer disclosed to police thumbnail
images containing child pornography and the police
viewed only the images that the technician had already viewed)). 13

Additional federal circuit court decisions have applied the Jacobsen private search construct to searches of digital information stored on electronic devices. See e.g. United States v.
Reddick, 900 F.3d 636 (5th Cir. 2018) (applying Jacobsen to an
officer’s viewing of the defendant’s computer files and concluding that because the child pornography files were deemed suspicious by a private actor and police did not expand the private
actor’s search, the Fourth Amendment was not violated); United
States v. Johnson, 806 F.3d 1323 (11th Cir. 2015) (applying Jacobsen to the private search of a cell phone and concluding that
the police exceeded the scope of the private search when the officer viewed a video that the private actor had not viewed);
United States v. Goodale, 738 F.3d 917 (8th Cir. 2013) (holding
that it is immaterial to application of the private search doctrine under Jacobsen whether the private party who conducted
the search of the defendant’s computer had the defendant’s consent to turn over to police illegal images discovered on the defendant’s computer; so long as the police officer did not exceed
the scope of the private search, the Fourth Amendment was not
violated); United States v. Cameron, 699 F.3d 621 (1st Cir. 2012)
13

37a
D. Conclusion
In the instant case, we have applied the High
Court’s accepted Jacobsen criteria and have concluded, based on the clear record, that Eidenmiller
was not acting as an agent of the government when he
discovered the thumbnail images of child pornography, and that Officer Maloney viewed only those images that Eidenmiller had presented to him based on
Eidenmiller’s private search. As Officer Maloney did
not exceed the private search conducted by Eidenmiller, there is no violation of the Fourth Amendment under Jacobsen.
We clarify that we are not adopting the Commonwealth’s position that one abandons his expectation of
privacy in his computer files when he delivers his computer to a commercial retail establishment for repair.
Further, we reject as inapplicable the narrower holding of the Superior Court in Sodomsky that one abandons his expectation of privacy when he consents to
having the computer repaired in a manner that may
result in the exposure of private information stored on
the computer files. Instead, we hold that an individual’s expectation of privacy at the moment he relinquishes his computer to a commercial establishment
for repair is irrelevant to our constitutional analysis
(holding that the Fourth Amendment was not violated when Yahoo!, Inc. searched an account after receiving an anonymous tip
that it contained images of child pornography because there was
no evidence that the government had any role in investigating
or participating in the private search); Commonwealth v. Jarrett, 338 F.3d 339 (4th Cir. 2003) (holding that the search of the
defendant’s computer conducted by a hacker did not implicate
the Fourth Amendment because the hacker was not acting as
an agent of the government when he conducted the search).

38a
because the computer technicians examining the contents of the computer are private actors, not subject to
the restrictions of the Fourth Amendment. 14 Thus,
our decision to affirm the lower court’s judgment
based upon the private search doctrine is not premised upon a preference to avoid the issue presented
but, rather, arises from the inapplicability of Fourth
Amendment jurisprudence to non-state actors.
We observe that the ramifications of applying an
abandonment theory to the facts presented are profound, as the abandonment theory, unlike the private
search doctrine, lacks the constitutional safeguard of
a restricted scope of the government’s subsequent examination of the evidence discovered. Under an abandonment theory, the individual “checks his privacy interest at the door” when he requests a repair that may
reveal the contents of private files stored on his computer. Once that expectation of privacy has been abandoned, there is no constitutional protection to be afforded, and the officer who responds to a report of
child pornography found on a computer could potentially search every file on it without restriction. Applied to the facts presented, a true application of an
abandonment theory would provide that when Officer
Maloney arrived at CompuGig to view the images of
child pornography found by Eidenmiller, he could
have examined all of the files contained on Appellant’s
laptop, as any expectation of privacy in those files had
been abandoned. 15
For this same reason, the federal cases of United States v.
Jones, 565 U.S. 400 (2012), and Carpenter v. United States, 138
S. Ct. 2206 (2018), are inapplicable as they involve government
searches and not searches conducted by a private individual.

14

Additionally, under an abandonment theory the court would
examine whether a reasonable person should have known that
15

39a
Under the private search doctrine, however, as explained supra, the officer responding to a report of
child pornography found on a computer would be limited to viewing only those images revealed in the private search. Accordingly, application of the private
search doctrine to the facts presented more narrowly
tailors the scope of the governmental examination of
the information revealed by the private search and offers greater protection of the privacy interests involved.
That is not to say that the application of the private search doctrine always affords greater protection. Where an unscrupulous computer technician
takes it upon himself to peruse one’s personal information contained in various files stored on the computer, unrelated to the requested repair, and that
technician later finds and reports to law enforcement
images of child pornography, the Fourth Amendment
is not implicated so long as the police officer does not
exceed the scope of the private search conducted. This
unsavory result, however, is not the fault of the application of a flawed legal theory, but rather a consequence of the Fourth Amendment’s guarantee against
unreasonable searches by the government. For these
reasons, we conclude that the abandonment rationale
employed in Sodomsky has no application to searches
conducted by private individuals.
Accordingly, we affirm the judgment of the Superior Court on these independent grounds.
his private computer files would be revealed during the completion of a particular computer repair. As Appellant cogently argues herein, the disparity of knowledge of computer operability
possessed by average citizens would render this determination
difficult to resolve in many cases.

40a
Justices Todd, Dougherty and Mundy join the
opinion.
Chief Justice Saylor files a dissenting opinion in
which Justice Donohue joins. Justice Wecht files a
concurring and dissenting opinion.
Judgment Entered 06/18/2019
s/ John A. Vaskov]
DEPUTY PROTHONOTARY

41a
IN THE
SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
COMMONWEALTH OF
PENNSYLVANIA,
Appellee
v.
JON ERIC SHAFFER,
Appellant

No. 16 WAP 2018
Appeal from the Order of
the Superior Court entered
December 21, 2017 at No.
435 WDA 2017, affirming
the Judgment of Sentence
of the Court of Common
Pleas of Butler County entered March 9, 2017, at No.
CP-10-CR-0000896-2016.
Argued: December 6, 2018

CONCURRING AND DISSENTING OPINION
JUSTICE WECHT

DECIDED: JUNE 18, 2019

I concur only in the result that today’s learned Majority reaches. The Majority chooses to invoke our discretionary authority to affirm an order upon any basis, and does so on the basis of the “private search”
doctrine. 1 I would address instead the question of
abandonment of privacy, which is the issue upon
which this Court granted allocatur. As applied to
these facts, this abandonment issue happens to resolve here in the Commonwealth’s favor. Accordingly,
I would affirm the judgment of sentence, and I join the
Majority only insofar as it reaches the same result. As
my path to that result diverges from the Majority’s, I
respectfully dissent from the Majority’s rationale.

1

Maj. Op. at 1-2 & n.1.

42a
As the Majority aptly summarizes the history of
the case, 2 I reiterate here only those facts and events
necessary to this discussion. On May 27, 2016, Jon
Shaffer filed a motion seeking suppression of the child
pornography seized from his personal computer. As
the Majority recounts, Shaffer argued that Officer
Christopher Maloney unconstitutionally searched
Shaffer’s computer without a search warrant when he
directed a CompuGig employee to open the files on
Shaffer’s computer and then proceeded to view those
files. Shaffer argued that neither exigent circumstances nor any other exception to the warrant requirement of our Constitutions3 justified the warrantless intrusion. Shaffer asserted that he had a legitimate expectation of privacy in the contents of his laptop computer, an expectation which, he maintained,
he did not relinquish by providing the computer to
CompuGig for repairs.
The Commonwealth responded by arguing that
Shaffer abandoned any expectation of privacy that he
had in the computer. The Commonwealth relied primarily upon the Superior Court’s decision in Commonwealth v. Sodomsky, 939 A.2d 363 (Pa. Super.
2007), a case that is both factually and legally similar
to the instant dispute.
On July 7, 2016, the trial court held a hearing on
Shaffer’s suppression motion. Following testimony
2

Id. at 2-12.

In his brief to this Court, Shaffer invokes both the Fourth
Amendment to the United States Constitution and Article I, Section 8 of the Pennsylvania Constitution. See Brief for Shaffer at
8. Shaffer does not provide an analysis pursuant to Commonwealth v. Edmunds, 586 A.2d 887 (Pa. 1991), in an effort to
demonstrate that the Pennsylvania Constitution provides
greater protections than its federal counterpart.

3

43a
from CompuGig employee John Eidenmiller and Officer Maloney, the inquiry focused primarily upon the
applicability of Sodomsky. The trial court found that
the facts of this case were close enough to those in
Sodomsky that the court was bound to apply its rationale. However, the trial court disagreed with the
Commonwealth’s assertion that Shaffer abandoned
his expectation of privacy the moment he delivered
the computer to CompuGig. Instead, the trial court determined, it was not until Shaffer requested repairs
that he abandoned any expectation that the contents
of the computer would be kept private. At that point,
Shaffer forfeited any right to challenge Officer Maloney’s actions. Consequently, the trial court denied
Shaffer’s suppression motion, and, later sitting as the
fact-finder, convicted Shaffer of the charges stemming
from the images obtained from the computer.
Initially, what is most important is what did not
occur during the suppression proceedings. At no point
did the Commonwealth assert that Officer Maloney’s
actions with respect to the computer were constitutional due to an earlier private search. The Commonwealth placed all of its eggs into the Sodomsky basket
(which addressed only whether a person has an expectation of privacy in these circumstances), and did not
invoke the private search doctrine. The trial court
ruled upon expectation of privacy grounds; it did not
find that the search was a private one.
Shaffer had no reason to anticipate or rebut any
argument that Officer Maloney’s warrantless inquiry
into the files on his computer was permissible as an
extension of CompuGig’s private search. More importantly, Shaffer had no opportunity to create a record to defend against such an argument. As the Majority explains, the applicability of the private search

44a
doctrine hinges principally upon whether the police officer exceeded the bounds of the private action already
undertaken. 4 Given no reason to believe that the Commonwealth would one day claim that the search at issue was a private search, Shaffer had no cause specifically to cross-examine either Officer Maloney or CompuGig’s Eidenmiller regarding the particular actions
performed by each. In a case involving the private
search question, such cross-examination would be undertaken in order to ascertain whether Officer Maloney did, in fact, exceed the parameters of Eidenmiller’s actions.
The case continued in the same character before
the Superior Court, where the focus of the parties and
the appellate panel remained upon Shaffer’s expectation of privacy in the computer or his abandonment
thereof. Once more, the Commonwealth did not raise
the argument that the private search doctrine applied, and the Superior Court accordingly did not address that doctrine. The Superior Court held only that
Shaffer had abandoned his expectation of privacy in
the computer.
We granted allocatur to address the following
question:
Does an individual give up his expectation of
privacy in the closed private files stored on his
computer, merely by taking his computer to a
commercial establishment for service or repair,
where the service or repair requested does not

See Maj. Op. at 20 (citing United States v. Jacobsen, 466 U.S.
109, 115, 117 (1984)).
4

45a
render the viewing of the citizen[’]s closed private files as foreseeable to either the customer
or the computer technician?
See Commonwealth v. Shaffer, 188 A.3d 1111 (Pa.
2018) (per curiam). Our order did not mention the private search doctrine, nor can one reasonably argue
that the doctrine was fairly encompassed within the
stated question. Nor did we direct any briefing or argument on the private search doctrine. 5
The private search doctrine did not make any appearance in this case until it surfaced as the Commonwealth’s third line of argument in its brief to this
Court. 6 The Majority relies exclusively upon this
tardy assertion to uphold Shaffer’s judgment of sentence. Under the “affirm-on-any-basis” jurisprudential device–which alternatively is known as the “rightfor-any-reason” doctrine—the Majority undeniably
has the discretionary authority to resolve the case in
this manner. But there are compelling reasons not to
do so.

As the Majority correctly notes, the failure of the Commonwealth at any point to raise the issue does not amount to waiver
of its right to raise it before us now. See Maj. Op. at 23-24 (citing
Rufo v. Bd. of License & Inspection Review, 192 A.3d 1113, 1123
(Pa. 2018)). As the appellee at all stages, the Commonwealth had
no burden to preserve any particular issue on pain of waiver.
However, as I discuss below, the Commonwealth’s failure to do
so undermines the notion that an issue raised for the first time
before this Court is “of record” for purposes of our ability to affirm
an order on any basis, and this failure places the other party at
a significant disadvantage in his or her ability to argue successfully to this Court.

5

6

See Brief for the Commonwealth at 17.

46a
I.

The Right-For-Any-Reason Doctrine

The “right-for-any-reason” doctrine “allows an appellate court to affirm the trial court’s decision on any
basis that is supported by the record.” In re A.J.R.-H.,
188 A.3d 1157, 1175-76 (Pa. 2018) (citing Ario v. Ingram Micro, Inc., 965 A.2d 1194, 1200 (Pa. 2009)).
The rationale behind the “right for any reason”
doctrine is that appellate review is of “the judgment or order before the appellate court, rather
than any particular reasoning or rationale employed by the lower tribunal.” Ario, 965 A.2d at
1200 (citing Hader v. Coplay Cement Mfg. Co.,
189 A.2d 271, 274-75 (Pa. 1953)). As the United
States Supreme Court has explained, “The reason for this rule is obvious. It would be wasteful
to send a case back to a lower court to reinstate
a decision which it had already made but which
the appellate court concluded should properly
be based on another ground within the power of
the appellate court to formulate.” Sec. & Exch.
Comm’n v. Chenery Corp., 318 U.S. 80, 88
(1943).
Id. at 1176 (citations modified).
However jurisprudentially economical the use of
the doctrine may be, an appellate court is not bound
to utilize it any time it can scour the record and find
another basis upon which to affirm. The doctrine is,
and always has been, discretionary and prudential.
See id. at 1176 (“This Court has stated that an appellate court may apply the right for any reason doctrine
. . . .”) (emphasis added); Commonwealth v. Wholaver,
177 A.3d 136, 145 (Pa. 2018) (“[I]t is well settled that
this Court may affirm a valid judgment or order for
any reason appearing as of record.”) (emphasis

47a
added); E. J. McAleer & Co. Inc. v. Iceland Prod., Inc.,
381 A.2d 441, 443 n.4 (Pa. 1977) (“We may, of course,
affirm the decision of the trial court if the result is correct on any ground without regard to the grounds
which the trial court itself relied upon.”) (emphasis
added).
The principal restraint upon an appellate court’s
discretionary prerogative to apply the right-for-anyreason doctrine arises when the record does not contain a sufficient factual basis to support the new
grounds for affirmance. As we explained most recently
in In re A.J.R.-H., an appellate court may apply the
doctrine if “the established facts support a legal conclusion producing the same outcome. It may not be
used to affirm a decision when the appellate court
must weigh evidence and engage in fact finding or
make credibility determinations to reach a legal conclusion.” In re A.J.R.-H., 188 A.3d at 1176 (citing
Chenery Corp., 318 U.S. at 88; Bearoff v. Bearoff Bros.,
Inc., 327 A.2d 72, 76 (Pa. 1974)).
Thus, at the forefront of any inquiry into the propriety of the application of the right-for-any-reason
doctrine is the question of whether the newly asserted
basis for affirmance is “of record,” i.e., whether the basis is supported by the existing factual record. In conducting this inquiry, we should not ignore how the record in this case was created. At no point before or during the evidentiary hearing on Shaffer’s motion did
the Commonwealth raise the private search doctrine.
Although the Commonwealth bears no issue-preservation duty as appellee, the arguments that it advanced in service of its initial burden at the suppression hearing played a significant role in the creation
of the factual record.

48a
At the heart of any private search doctrine analysis is the question of whether the police officer’s subsequent actions exceeded those of the private citizen
who conducted the first search. 7 Had Shaffer been put
on notice, actual or constructive, that he would have
to rebut a private search argument, then or in the future, his counsel could have conducted the hearing differently, as any reasonably competent lawyer would.
To defend against any private search claim, Shaffer’s
counsel no doubt would have cross-examined Eidenmiller in detail regarding the steps that the latter
took until he eventually discovered the pornographic
files. Counsel then would have inquired as extensively
into Eidenmiller’s actions when Officer Maloney directed him to locate and display the files for the second time. Finally, counsel would have engaged in a
similarly detailed examination of Officer Maloney.
Only then would Shaffer have a factual record sufficient to oppose a claim of a private search and to argue
that any discrepancies between the two searches (assuming that there were discrepancies and that the
second search exceeded the first) rendered the private
search doctrine inapplicable. At the very minimum,
Shaffer should have had the opportunity to create a
sufficient record.
I do not maintain that notice always is a necessary
precondition to application of the right-for-any-reason
doctrine. Rather, under circumstances such as those
presented here, the manner in which the record is created is both an important factor in an appellate court’s
consideration of whether to apply the right-for-anyreason doctrine, and a significant factor in the crucial

7

See Jacobsen, 466 U.S. at 115, 117; see also Maj. Op. at 20.

49a
inquiry of whether the newly asserted basis for affirmance is “of record.”
The sole inquiry from the outset of this case up to
and through our grant of allocatur was whether Shaffer had an expectation of privacy in the laptop computer that he dropped off for repairs at CompuGig.
That inquiry differs significantly from one assessing
the private search doctrine. As a general matter, there
are two essential elements that must be present before any search can be challenged constitutionally.
The area searched must be an area in which the person challenging the search has a reasonable expectation of privacy, see Commonwealth v. Hawkins, 718
A.2d 265, 267 (Pa. 1998), and the search must be performed by a state actor. Commonwealth v. Price, 672
A.2d 280, 283 (Pa. 1996). The former element concerns
whether the challenger has a privacy right in the area
that was searched. The latter addresses the issue of
who conducts the search. These two elements entail
different substantive analyses and examinations,
both as to law and as to fact. The factual record created to establish one element cannot automatically be
substituted as a sufficient factual record for the other.
We cannot graft an evidentiary record focused entirely
upon Shaffer’s expectation of privacy onto the Commonwealth’s new invocation of the private search doctrine. These are apples and oranges.
To find a sufficient record basis for application of
the private search doctrine, the Majority highlights a
brief exchange between the Commonwealth’s attorney
and Officer Maloney, as well as two limited interactions between Shaffer’s counsel and Officer Maloney. 8
These excerpts cannot suffice as an evidentiary record
8

See Maj. Op. at 24-25.

50a
that would enable a proper analysis of the private
search doctrine under the facts and circumstances of
this case. The Commonwealth was not attempting to
establish that Officer Maloney’s examination of the
computer did not exceed Eidenmiller’s initial actions.
More importantly, a brief two question/and two answer exchange between Shaffer’s counsel and Officer
Maloney that touched inadvertently upon matters
that sometime later might be deemed pertinent to the
private search doctrine is a far cry from the examination that would be necessary to build a record adequate to evaluate the private actor versus state actor
dilemma.
A review of one aspect of those exchanges will illustrate my point. When Officer Maloney was on the
stand, Shaffer’s counsel asked him whether Eidenmiller, at the officer’s request, opened the file containing
the pornographic images. Officer Maloney responded,
“Yes, sir, he showed me the exact route taken to find
the images.” 9 The Majority construes this statement
as conclusive evidence that Eidenmiller did, in fact,
take the same exact path in front of Officer Maloney,
and, therefore, that Officer Maloney did not (and
could not) exceed the scope of the private search. The
problem is that Shaffer’s counsel did not test that
statement through cross-examination. He simply let
it go. The reason for the free pass is not difficult to
discern. Shaffer’s counsel had no reason to know that
the parallelism between the two searches would be an
issue in the case, or that years later that one answer
would form the factual basis to deny his client relief
on a newly asserted, and entirely different, legal ba-

9

N.T., 7/7/2016, at 30.

51a
sis. Instead, counsel let Officer Maloney testify effectively to a legal conclusion without exploring the factual basis for that conclusion, through no fault of his
own. No one would anticipate that a case would take
on such a different character at the last stage of state
appellate proceedings. That counsel, by happenstance
or coincidence, stumbled upon one or two questions
relevant to the new issue upon which this Court now
chooses to focus does not mean that the record suffices
for purposes of our discretionary application of the
right-for-any-reason doctrine.
Moreover, the problem is not only that the issue is
not “of record.” The problem also is that it is inequitable to employ our discretionary authority to apply the
right-for-any-reason doctrine here, inasmuch as the
issue was thrust upon Shaffer only at this very late
stage in the proceedings. When the Commonwealth
raised the private search doctrine for the first time as
its third argument in its brief to this Court, Shaffer
was forced to respond to a new legal theory for the first
time in his reply brief to this Court. Reply briefs, by
rule, must be limited to 7000 words, and may not exceed fifteen pages. 10 But the page limit is not the
greatest obstacle that Shaffer must overcome. It is not
what puts him at a significant disadvantage, not what
hinders his ability to defend against the Commonwealth’s newly asserted theory. It is the state of the
record in this case that precludes Shaffer effectively
from defending against the new claim. The record before this Court is one tailored (“teed up,” as we say)
specifically to the question of whether Shaffer retained an expectation of privacy in his laptop computer when he turned it over for repairs. It is not a
10

See Pa.R.A.P. 2135(a)(1).

52a
record containing any meaningful evidentiary development of the facts necessary for evaluation of the private search doctrine in the context of this case. Shaffer is forced—in a reply brief—to try to make the record that we have suffice for the record that we need.
He is forced to cram the proverbial square peg into a
round hole.
The right-for-any-reason doctrine is premised primarily upon the desirability of conserving judicial and
prosecutorial resources. Laudable as that goal may be,
we still must be judicious in our exercise of discretion,
and we should not wield that tool when it would impose upon one litigant an inequitable handicap. We
should apply the doctrine only when the newly invoked basis for relief truly is of record, and where the
applicability of that new basis is sufficiently clear,
such that further proceedings on remand would be a
waste of time and resources. That is not the case here.
There is another reason that I would not apply the
right-for-any-reason doctrine in this case. As I discuss
in greater detail in Part III below, Shaffer’s judgment
of sentence should be affirmed on the merits of the
question upon which we actually granted allocatur. In
other words, there is no reason to find an alternative
basis to affirm when the case, as is, necessitates affirmance on the precise question presented.
II.

The Private Search Doctrine

Before proceeding to the merits of the abandonment of privacy question presented by this case, I will
assume for the moment that it would be an equitable
exercise of our discretion to apply the right-for-anyreason doctrine; I do so in order to note my disagreement with the Majority’s application of the private
search doctrine.

53a
The seminal case regarding the private search doctrine is the Supreme Court of the United States’ decision in Jacobsen. In that case, a supervisor at an airport location of Federal Express noticed that a forklift
had damaged a package. Jacobsen, 466 U.S. at 111.
Together with the office manager, the supervisor
opened the damaged package in order to inventory its
contents pursuant to a written insurance protocol. Inside the package was a tube assembled from duct tape.
The Federal Express employees cut open the tube and
found baggies containing what they believed to be cocaine. Immediately, they called the DEA and returned
the baggies to the tube. A DEA agent arrived, removed
the baggies from the tube, and examined the substance, which tested positive for cocaine. Id. at 11112. Other DEA agents arrived on the scene and, ultimately, obtained a search warrant based in large part
upon the search performed by the first agent. Id. at
112.
As the Majority recounts, the Supreme Court considered the DEA agent’s initial search as a private
search because “the federal agents did not infringe
any constitutionally protected privacy interest that
had not already been frustrated as the result of private conduct.” Id. at 126. Because the initial invasion
of privacy occurred at the hands of a private individual, and was not performed by a government agent,
the subsequent search by the DEA agent was not unreasonable.
This doctrine poses readily identifiable risks to an
individual’s right of privacy, and entails a considerable potential for abuse. The private search doctrine essentially places the state actor behind private eyes, allowing a law enforcement officer to go wherever a pri-

54a
vate person before him has gone. To cabin the potential hazard to privacy rights, the Supreme Court limited the subsequent governmental action to the
bounds of the actions of the private individual. Any
additional actions “must be tested by the degree to
which they exceeded the scope of the private search.”
Id. at 115 (citing Walter v. United States, 447 U.S. 649
(1980)).
More significant to the case sub judice, and as another limitation on the private search doctrine, the
Supreme Court explained that the DEA’s subsequent
opening of the package did not exceed the parameters
of the initial, private search because “there was a virtual certainty that nothing else of significance was in
the package and that a manual inspection of the tube
and its contents would not tell [the DEA agent] anything more than he already had been told.” Id. at 119.
It is this statement that distinguishes the circumstances in Jacobsen from Officer Maloney’s actions in
this case.
In Jacobsen, the DEA agent opened a package that
contained a tube. In the tube were plastic bags containing cocaine. There was nothing else to find or discover. The DEA’s re-examination of the package posed
no additional threat to Jacobsen’s privacy. It was “a
virtual certainty” that the second search would reveal
nothing but what the Federal Express employees had
found and reported.
The same cannot be said for a personal computer.
Regardless of the path taken by CompuGig’s Eidenmiller to locate the suspicious files as directed by
Officer Maloney, there existed a very real potential for
exposure of information not yet discovered by the pri-

55a
vate search. In 2019, one’s personal computer contains a wealth of information, both private and public.
Even the screen saver, wallpaper, and names of files
on the home screen of a computer can expose private
information about the individual who owns the computer. Unlike a duct tape tube that has only one area
where items can be stored, a personal computer offers
virtually limitless areas for exploration. An inadvertent click on a file or tab could uncover to a state actor
private information that was not part of the information collected initially by the private actor. Eidenmiller’s navigation of a personal computer at the
direction of a police officer does not entail the same
“virtual certainty,” or near guarantee, that no other
private information could fall into the hands of the
law enforcement agent in the same way that the tube
in Jacobsen did. The tube in Jacobsen was a limited
vessel, eliminating the possibility that the DEA agent
would be able to exceed the bounds of the private
search. Indeed, if the tube could be said to have an
opposite, that opposite would be a personal computer.
Because nothing in the record as established in
this case convincingly demonstrates a “virtual certainty” that Officer Maloney’s second, warrantless
search would not exceed the scope of the initial private
search and would not reveal information other than
what Eidenmiller already had discovered, I would find
the private search doctrine to be inapplicable in this
case in the event that the doctrine was properly before
us.
That does not mean that I would reverse the lower
courts. For the reasons that follow, I would hold that
Shaffer ultimately, though not initially, abandoned
his expectation of privacy in the computer.

56a
III.

Shaffer’s Expectation of Privacy in the
Personal Computer

We granted allocatur in this case to consider
whether the owner of a personal computer abandons
his or her expectation of privacy in closed files on that
computer the moment he or she drops it off with a
computer repair service. This question necessarily implicates the third-party doctrine. When we accepted
this appeal, we provided ourselves with an opportunity to reconsider that doctrine in the context of our
modern high-tech world, a world in which the interaction between technology and one’s personal information has changed significantly from the past.
In Katz v. United States, 389 U.S. 347 (1967), the
United States Supreme Court stated for the first time
that the Fourth Amendment to the United States Constitution “protects people, not places.” Id. at 351. Katz
expanded the protections of the Fourth Amendment to
include those places where one enjoys a reasonable expectation of privacy. This landmark decision marked
the beginning of our current understanding that a
person, place, area, or thing is protected by the Fourth
Amendment if the person asserting the protection
seeks to preserve the area or place infringed upon as
private, and if the expectation of privacy is one that
society would deem reasonable. See Commonwealth v.
Shabezz, 166 A.3d 278, 288 (Pa. 2017).
The third-party doctrine addresses the question of
whether a person’s expectation of privacy applies
when the object as to which the expectation is asserted
is placed in the hands of a third person. Had this case
been brought even a decade ago, its resolution as a
matter of federal constitutional law would have been
relatively straightforward. In United States v. Miller,

57a
425 U.S. 435 (1976), and Smith v. Maryland, 442 U.S.
735 (1979), the Supreme Court of the United States
firmly established the third-party doctrine, effectively
holding that a person retained no expectation of privacy in materials given over to the possession of a
third party. In Miller, the Court held that Miller’s
bank records actually were business records of the
bank in which Miller could “assert neither ownership
nor possession.” Miller, 425 U.S. at 440. Further, the
records, in possession of a third party, could not be
deemed exclusively private to Miller as they were “exposed to [bank] employees in the ordinary course of
business.” Id. at 442. Miller had “take[n] the risk, in
revealing his affairs to another, that the information
[would] be conveyed by that person to the [g]overnment.” Id. at 443.
In Smith, the Supreme Court addressed Smith’s
claim that he held a reasonable expectation of privacy
in a pen register that recorded the outgoing numbers
dialed from his landline telephone. The Court rejected
Smith’s claim, opining that it “doubt[ed] that people
in general entertain any actual expectation of privacy
in the numbers they dial.” Smith, 442 U.S. at 742. The
Court noted that, at the time, telephone companies
used dialed numbers for a variety of legitimate business purposes. When a person makes a call, the Smith
Court reasoned, he or she voluntarily conveyed the dialed number to the phone company, which received
the information in the regular course of business.
Thus, as in Miller, Smith had assumed the risk that,
by dialing a number, he subjected himself to the possibility that the telephone company would turn his dialing information over to the government. The Court
explained that “a person has no legitimate expectation

58a
of privacy in information he voluntarily turns over to
third parties.” Id. at 743-44.
Under a reading of only Miller and Smith, it would
appear that Shaffer could claim no legitimate expectation of privacy in his computer once he turned it
over to CompuGig. By doing so, he would be deemed
by those precedents voluntarily to have exposed the
computer’s contents to CompuGig’s employees, who
received the information in the regular course of their
business. The argument would follow that Shaffer assumed the risk that a person working at CompuGig
could turn any information found on the computer
over to the police.
However, the jurisprudential landscape has
evolved since the 1970’s. A fair review of the United
States Supreme Court’s recent cases, beginning with
United States v. Jones, 565 U.S. 400 (2012), reveals
that the Miller/Smith view of the third-party doctrine
now is somewhat antiquated, inasmuch as modern
technology has caused the High Court to think differently about third-party interactions. In 2012, the
Court in Jones confronted the question of whether affixing a GPS device to a person’s vehicle and tracking
his or her movements—without a search warrant—
constitutes a search or seizure under the Fourth
Amendment. Id. at 402. In deciding that doing so was
indeed a search, the Court (in an opinion authored by
Justice Scalia) emphasized the intrusiveness that the
government’s actions entailed: “The Government
physically occupied private property for the purpose
of obtaining information.” Id. at 404. The Court had
“no doubt” that this was a search for purposes of the
Fourth Amendment. Id. The installation of the GPS
device effectively was a trespass that, for twenty-eight

59a
days, permitted the government to know and evaluate
all of Jones’ vehicular movements.
Justice Scalia’s majority opinion drew two concurrences relevant here. First, Justice Alito, joined by
Justices Ginsburg, Breyer, and Kagan, rejected Justice Scalia’s trespass-oriented approach to the case.
These four Justices would have simply concluded that
attachment of the GPS device to Jones’ car was a
search because it violated Jones’ reasonable expectation of privacy through “the long-term monitoring of
the movements of the vehicle he drove.” Id. at 419.
Justice Alito opined that “the use of longer term GPS
monitoring in investigations of most offenses impinges on expectations of privacy. For such offenses,
society's expectation has been that law enforcement
agents and others would not—and indeed, in the
main, simply could not—secretly monitor and catalogue every single movement of an individual's car for
a very long period.” Id. at 430.
Justice Sotomayor authored a concurring opinion
in which she questioned whether the “Executive, in
the absence of any oversight from a coordinate branch,
[should have] a tool so amenable to misuse, especially
in light of the Fourth Amendment’s goal to curb arbitrary exercises of police power . . . .” Id. at 416. More
importantly for present purposes, Justice Sotomayor
opined that “it may be necessary to reconsider the
premise that an individual has no reasonable expectation of privacy in information voluntarily disclosed
to third parties.” Id. at 417. Specifically with regard to
the “digital age,” Justice Sotomayor found the thirdparty doctrine to be “ill suited” because people now
“reveal a great deal about themselves to third parties
in the course of carrying out mundane tasks.” Id. “People disclose the phone numbers that they dial or text

60a
to their cellular providers; the URLs that they visit
and the e-mail addresses with which they correspond
to their Internet service providers; and the books, groceries, and medications they purchase to online retailers.” Id. In Justice Sotomayor’s view, a strict application of the third-party doctrine no longer is feasible.
This is an idea that would pick up steam a few years
later in Carpenter v. United States, 138 S. Ct. 2206
(2018).
In Carpenter, the Supreme Court granted certiorari to determine “how to apply the Fourth Amendment to a new phenomenon: the ability to chronicle a
person’s past movements through the record of his cell
phone signals.” Id. at 2216. At issue were records obtained from communications between a person’s cellular telephone and a cellular tower. Through these records, police could track a person’s movement or determine whether that person had been in a particular
area during a certain time period.
In a majority opinion authored by Chief Justice
Roberts, the Court declined to extend Miller’s and
Smith’s strict third-party doctrine to preclude an expectation of privacy in the cellular tower records. The
Court held first that, although Miller and Smith apply
to phone numbers and bank records, the doctrine cannot apply automatically to the cellular tower records
at issue. The core inquiry still must be whether society
would deem reasonable an expectation of privacy in
the area or items that were searched or seized. At the
time that Miller and Smith were decided, few would
have imagined a society so technologically advanced,
or one in which citizens were so attached to electronic
devices. Quoting Riley v. California, 573 U.S. 373
(2014) (holding that police must get a warrant before

61a
searching a cellular telephone seized incident to an arrest), the Court repeated its view that cell phones
have become a “feature of human anatomy,” which
“tracks nearly exactly the movements of its owner.”
Carpenter, 138 S. Ct. at 2218. Modern people “compulsively carry cell phones with them all the time. A cell
phone faithfully follows its owner beyond public thoroughfares and into private residences, doctor’s offices,
political headquarters, and other potentially revealing locales.” Id.
The Court also found it important that cellular
towers do not merely log phone numbers. The towers
in actuality compile a comprehensive and detailed record of a person’s movements. These towers had generated “seismic shifts in digital technology that made
possible the tracking of not only Carpenter’s location
but also everyone else’s, not for a short period but for
years and years.” Id. at 2219. The unique nature of
the compilation of data by these towers necessarily
overcomes the strict parameters of the third-party
doctrine. “[A]n individual maintains a legitimate expectation of privacy in the record of his physical movements as captured through [cellular tower records.]”
Id. at 2217. Thus, the reach of the earlier third-party
doctrine cases has been substantially limited in this
context.
That the records technically are compiled for commercial purposes cannot negate a person’s expectation
of privacy. In Carpenter, the government seized records encompassing one hundred and twenty-seven
days of activity, “an all-encompassing record of the
holder’s whereabouts.” Id. As was the case with the
GPS tracker in Jones, the “time stamped data provides an intimate window into a person’s life, revealing not only his particular movements, but through

62a
them his ‘familial, political, professional, religious,
and sexual associations.’” Id. (quoting Jones, 565 U.S.
at 415 (Sotomayor, J., concurring)). Like the cell
phones themselves, the records “hold for many Americans the privacies of life.” Id. (citation and quotation
marks omitted).
Rejecting a rote application of the third-party doctrine, as advocated by the Government and the dissenting Justices, the Carpenter Court explained that
the doctrine is rooted in a “reduced” expectation of privacy; it does not mean that a person has no expectation of privacy at all. “[T]he fact of ‘diminished privacy
interests does not mean that the Fourth Amendment
falls out of the picture entirely.’” Id. at 2219 (quoting
Riley, 573 U.S. at 392). Neither Miller nor Smith relied solely upon the fact that the relevant materials
were in the hands of another. Instead, the Court considered “the nature of the particular documents
sought” to determine whether there was “a legitimate
expectation of privacy concerning their contents.” Id.
at 2219 (citation and quotation marks omitted).
In dissent, Justice Thomas expressed reservations
as to the continued viability of the third-party doctrine, as Justice Sotomayor had done in her concurring opinion in Jones. In Justice Thomas’ view, the
Court approached the case incorrectly, inasmuch as
the Court should not have contemplated at all
whether a search occurred, but instead should have
considered whose property was searched. Justice
Thomas noted that the Fourth Amendment protects
people from unreasonable searches of “their” places,
property, and effects. Id. at 2235 (Thomas, J., dissenting). Thus, “each person has the right to be secure
against unreasonable searches . . . in his own person,
house, papers, and effects.” Id. (quoting Minnesota v.

63a
Carter, 525 U.S. 83, 92 (1998) (Scalia, J., concurring)
(emphasis in original)). In Carpenter, the cellular
tower records did not belong to Carpenter. Thus, according to Justice Thomas, he had no viable Fourth
Amendment claim. Notably, this approach would
eliminate the third-party doctrine altogether. As long
as a person owned the property, he or she could claim
a Fourth Amendment violation regardless of who was
in possession at the time that the search occurred.
It is noteworthy that both Justices Thomas and Sotomayor have opined that the long standing thirdparty doctrine is no longer sustainable, albeit for different reasons. Nonetheless, what is important presently is that Carpenter itself provides the roadmap to
resolving the expectation of privacy issue before us today. Foremost, Carpenter expressly rejected the notion that a person loses all expectation of privacy in
an object immediately upon it landing in the hands of
a third party. The Court emphasized that, while one
may have a diminished expectation of privacy in that
object, he or she does not invariably forfeit his or her
expectation of privacy entirely. Examining Miller and
Smith, the Court noted that what matters most was
not that the materials at issue were in the hands of
another, but rather “the nature of the particular documents sought” in ascertaining whether there existed
a reasonable expectation of privacy in the contents
searched or seized. Carpenter, 138 S. Ct. at 2219.
In the modern digital age, personal computers and
similar devices are quite like the cellular telephones
at issue in Riley and the tracking of movements in
Jones and Carpenter. Americans use these computing
devices to aid in almost every aspect of their daily
lives. We use them to get an education, to discuss politics and current events, to find a romantic partner,

64a
and to pay our bills. We store personal digital photographs on them, and engage in personal correspondence. We use computers for work, entertainment, and
religion. We chronicle our lives with them. We shop
with them. We pay our taxes with them. The personal
computer, although not always carried everywhere we
go like cell phones, has become equally important to
the functioning of our daily lives. A search of a computer can provide the government with a complete
snap-shot of a person’s private life, revealing information related to every aspect of our lives, including
those things we seek to keep most private. “An Internet search and browsing history, for example, can be
found on an Internet-enabled [personal computer] and
could reveal an individual's private interests or concerns—perhaps a search for certain symptoms of disease, coupled with frequent visits to WebMD.” Riley,
573 U.S. at 395-96.
Personal computers, like modern cellular telephones, “are not just another technological convenience. With all they contain and all they may reveal,
they hold for many Americans the privacies of life.” Id.
at 403 (citation and quotation marks omitted). For
these reasons, personal computers align with cellular
phones, GPS devices, and long-term records of a person’s movements, such that the third-party doctrine
does not automatically extinguish any and all expec-

65a
tation of privacy that a person has in his or her computer when it is in the hands of another. 11 The protection of the Fourth Amendment simply “does not fall
out of the picture entirely.” See Carpenter, supra. 12
Nonetheless, that Shaffer maintained some expectation of privacy even though he submitted the computer to CompuGig does not mean that Shaffer retained that expectation forever. It is axiomatic that a
person who has an expectation of privacy also can
abandon that expectation. Commonwealth v. Dowds,
761 A.2d 1125, 1131 (Pa. 2000). Abandonment is a
The Majority chooses to resolve this case on the basis of the
private search doctrine, concluding that “an individual’s expectation of privacy at the moment he relinquishes his computer to
a commercial establishment for repair is irrelevant to our constitutional analysis because the computer technicians examining
the contents of the computer are private actors, not subject to the
restrictions of the Fourth Amendment.” Maj. Op. at 32. I disagree. If the expectation of privacy was irrelevant, then the Supreme Court of the United States’ analyses in Smith (bank records) and Miller (pen register) would be irrelevant. In those
cases, the Supreme Court held that the defendants could not
challenge a subsequent search or seizure of the relevant materials because, once those materials were exposed to a third party,
the defendants no longer retained an expectation of privacy in
them. The Court did not predicate its holding that the seizures
were constitutional on the rationale that the subsequent search
did not exceed what was exposed to the third-parties. Moreover,
if a person does not hold an expectation of privacy in an item
being searched, then it does not matter whether the person performing the search is a private or state actor.
11

My perspective also is congruent with Pennsylvania’s Article
I, Section 8 third-party doctrine. See Commonwealth v. DeJohn,
403 A.2d 1283 (Pa. 1979) (holding that, contrary to Miller and
Smith, under the Pennsylvania Constitution, a person retains a
reasonable expectation of privacy in bank records even though a
bank employee would have free access to view the contents contained therein).
12

66a
question of intent, and “may be inferred from words
spoken, acts done, and other objective facts.” Id. (citing Commonwealth v. Shoatz, 366 A.2d 1216, 1220
(Pa. 1976)).
Presently, Shaffer’s words and actions demonstrate clearly that he abandoned his expectation of
privacy in the computer. 13 In November 2015, Shaffer’s laptop stopped operating correctly. He believed
that his son had downloaded some files on the comThe Majority characterizes the application of an abandonment
theory to the facts of this case as “profound,” and observes that
such a theory is less protective (in some instances) of privacy
rights than is the private search doctrine. Maj. Op. at 32. To be
sure, any time that the state obtains and exercises carte blanche
authority to invade a person’s effects, a profound act occurs, regardless of whether that search occurs because the person has
given up any right to challenge the search or because the state
actor is merely following the actions of a private citizen. It is true
as well that the private search doctrine affords an extra layer of
constitutional protection beyond that allowed by the traditional
third-party doctrine, inasmuch as the latter necessarily entails
an absolute abandonment of any and all privacy interests in the
property or item provided to the third party, i.e., the person
“checks his privacy interest at the door.” Id. at 32. I depart from
the Majority because, as explained hereinabove, I would not apply the traditional third-party doctrine. The Supreme Court of
the United States’ case law has evolved to the degree that a person no longer categorically checks his privacy interest at the
door, at least when the item now in the hands of a third party is
a personal computer. Having retained some privacy in that personal computer, the owner may, by limiting access to certain areas of the device, retain some of his or her privacy interest in it.
Put differently, with regard to her personal computer and similar
devices, a person does not automatically grant access to all of the
files stored anywhere on the computer simply by turning it over
for service. Of course, as with Shaffer here, the facts of the case
may demonstrate that the person intended to grant unfettered
access to the entire computer.
13

67a
puter that had affected its functionality. On November 25, 2015, Shaffer took the laptop to CompuGig for
service. On the intake form, Shaffer indicated that the
computer had been affected by “Spyware/virus” and
that it could not “get the Internet.” He also indicated
that, after his son had downloaded something, the laptop’s performance was riddled by “pop ups.”
Shaffer provided CompuGig with his password, to
allow CompuGig access to the computer, and he requested restorative services. Eidenmiller performed a
basic diagnostic test, which revealed that the hard
drive was failing. An administrator from CompuGig
called Shaffer and told him of the results of this initial
test. The administrator also informed Shaffer that the
repairs would cost more than the initial estimate of
$160. Shaffer told the administrator that, based upon
the diagnostics, he wanted to replace the failing hard
drive despite the increased cost. Shaffer then authorized further repairs. Shaffer made no efforts to limit
CompuGig’s access to any file or folder on the laptop.
Eidenmiller was not a party to that call, but he
continued to work on the laptop. Acting on what he
believed was Shaffer’s request, Eidenmiller attempted
to take an image of the hard drive and to place that
image into a new hard drive. Although he successfully
imaged the old hard drive, he was unable to insert
that image onto a new hard drive. A CompuGig employee once more contacted Shaffer and told him of the
failed attempt.
Eidenmiller then determined that the only other
way to save the files on the defective hard drive was
to manually copy the files and transfer them to the
new hard drive one-by-one. CompuGig again contacted Shaffer and informed him that this was the last

68a
viable option to save the files. Shaffer consented to the
work.
On these facts, Shaffer undeniably abandoned
whatever expectation of privacy that he retained in
the computer. Thus, by the time that Officer Maloney
observed the pornographic photographs, Shaffer was
unable to claim an expectation of privacy in the electronic folders in which they were stored. Having no
such expectation, Shaffer is not entitled to suppression of those images.
*

*

*

Determination of whether a person has an expectation of privacy in an area searched is no easy task.
It requires consideration of a number of factors, some
of which are not always readily apparent. Police officers in the field make these decisions every day across
Pennsylvania. Occasionally, and no doubt frustratingly, an appellate court will hold that an officer’s estimation of a person’s expectation of privacy was erroneous, leading to the suppression of evidence and, possibly, the dismissal of charges.
The risk of such an outcome often can be ameliorated by following the letter of our Constitutions and
obtaining a search warrant when probable cause exists. It is true that an officer is not required to get a
warrant to search an area in which the suspect has no
expectation of privacy. However, simply because an
officer is not required to get a warrant does not mean
that he or she cannot (or should not) do so. To obtain
a warrant is to provide the subsequent search with an
added layer of protection from challenge, inasmuch as
the search was authorized by a neutral and detached
magistrate. Pre- approval of the search by a judicial
officer eliminates the officer’s need to make the much

69a
riskier decision of determining on the spot whether
the subject has an expectation of privacy.
In some instances, it will be patent and obvious
that the suspect has no expectation of privacy in the
area that the officer seeks to search. However, this is
not that case. CompuGig had sole possession of Shaffer’s computer. An identified witness informed the police that he observed what he believed to be child pornography on the computer. Clearly, probable cause existed to obtain a warrant to search the computer. Instead of searching the computer immediately, the better (and more constitutionally adherent) practice is to
secure the computer and proceed to get a warrant,
thereby avoiding the risk of erroneously calculating
whether Shaffer had an expectation of privacy.
*

*

*

For the reasons discussed, I concur in the result
reached by the Majority. I dissent as to the Majority’s
legal analysis.

70a
IN THE
SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
COMMONWEALTH OF
PENNSYLVANIA,
Appellee
v.
JON ERIC SHAFFER,
Appellant

No. 16 WAP 2018
Appeal from the Order of
the Superior Court entered
December 21, 2017 at No.
435 WDA 2017, affirming
the Judgment of Sentence
of the Court of Common
Pleas of Butler County entered March 9, 2017, at No.
CP-10-CR-0000896-2016.
Argued: December 6, 2018

CONCURRING AND DISSENTING OPINION
CHIEF JUSTICE SAYLOR
DECIDED: JUNE 18, 2019

On the issue of abandonment, I agree with those
courts which have held that a person does not abandon a reasonable expectation of privacy merely by
turning a computer over to a repairperson to restore
its functionality. See, e.g, United States v. Barth, 26 F.
Supp. 2d 929, 936-37 (1998); State v. Cardwell, 778
S.E.2d 483, 488-89 (S.C. Ct. App. 2015), aff’d as modified, 824 S.E.2d 451 (S.C. 2019). For my part, in the
computer repair scenario, I am reluctant to find
wholesale abandonment absent an express admonition to the defendant that closed files may be opened
and viewed non-confidentially in the repair process.
Substantively, my thoughts align more closely
with the majority’s invocation of the private-search

71a
doctrine, since the present circumstances “significantly lessened [Appellant’s] reasonable expectation
of privacy ‘by creating a risk of intrusion [by private
parties] which [was] reasonable foreseeable.” Id.
(quoting United States v. Paige 136 F.3d 1012, 1017
(5th Cir. 1998)). Nevertheless, I agree with Justice
Wecht that the record has not been appropriately developed to allow for consideration of the application of
the doctrine in this case. See Concurring and Dissenting Opinion at 3-10.
Finally, to the degree that the private search doctrine applies, it would seem to me that it should only
justify a viewing, by authorities, of files that already
have been opened in the course of the private search.
Here, however, police proceeded to seize Appellant’s
laptop from its place of entrustment without a warrant. See Majority Opinion, slip op. at 4. Other than
relying on the concept of abandonment, the Commonwealth fails to identify an applicable exception to the
warrant requirement to justify such seizure. 1
As Justice Wecht has amply demonstrated, many of the conceptual difficulties here arise from the shifting focus, at the present stage, from abandonment to the private search doctrine.
See, e.g. Concurring and Dissenting Opinion at 3 (“Shaffer had
no reason to anticipate or rebut any argument that Officer Maloney’s warrantless inquiry into the files on his computer was permissible as an extension of CompuGig’s private search.”). In
these circumstances, I respectfully differ with the majority’s approach in faulting Appellant for failing to previously anticipate
concerns and considerations relevant to the private search doctrine. See Majority Opinion, slip op. at 5 n.6.
1

Closer consideration of exceptions to the warrant requirement
other than abandonment might be in order, had this case been
developed by the Commonwealth so as to bring such exceptions
into play in a timely fashion. Again, the Commonwealth does
bear a substantial burden relative to warrantless seizures at a

72a
Concluding, as I do, that the case should turn on
the abandonment question, and that Appellant did
not completely abandon his expectation of privacy in
closed computer files stored on his hard disk, I would
reverse the order the Superior Court.
Justice Donohue joins this dissenting opinion.

suppression hearing. See, e.g., In re L.J., 622 Pa. 126, 146, 79
A.3d 1073, 1085 (2013).

73a
APPENDIX B
IN THE SUPERIOR COURT
OF PENNSYLVANIA
[filed December 21, 2017]
COMMONWEALTH OF
PENNSYLVANIA,
Appellee
v.

No. 435 WDA 2017

JON ERIC SHAFFER,
Appellant
Appeal from the Judgment of Sentence Entered
March 9, 2017
In the Court of Common Pleas of Butler County
Criminal Division at No: CP-10-CR-0000896-2016
BEFORE: BENDER,
STABILE, J.

P.J.E.,

OLSON,

J.,

and

OPINION BY STABILE, J.:
Appellant, Jon Eric Shaffer, appeals from the
March 9, 2017 judgment of sentence imposing an aggregate 6 to 12 months of incarceration followed by
156 months of probation for possession of child pornography (18 Pa.C.S.A. § 6312(d)) and criminal use of
a communication facility (18 Pa.C.S.A. § 7512). We affirm.
On November 25, 2015, a computer technician was
attempting to save files from the failing hard drive in
Appellant’s laptop computer when he discovered ex-

74a
plicit photographic images of young girls. The technician summoned the police, and the police arrested Appellant and charged him with the aforementioned offenses. Appellant filed a pretrial motion to suppress
the evidence from the warrantless search and seizure
of his laptop computer. The trial court conducted a
hearing on July 7, 2016, and denied the motion on October 3, 2016. On November 10, 2016, the trial court,
sitting as finder of fact, found Appellant guilty of both
charges. The trial court imposed sentence on March 9,
2016, and Appellant filed this timely appeal on March
14, 2017.
The trial court summarized the pertinent facts:
[Appellant] delivered his laptop computer to
CompuGig for repair and completed an initial
work order form that is dated November 25,
2015. On the form, in response to the question,
‘What problems are you experiencing?’, boxes
next to ‘Spyware/virus’ and ‘Can’t get to Internet’ are marked. Additional information provided by [Appellant] at the time he delivered
the laptop to CompuGig indicated that ‘Customer’s son downloaded some things and now
there are a lot of pop-ups. Internet has stopped
working.’ After running initial diagnostics,
[computer technician Justin] Eidenmiller believed the computer had a failing hard drive. A
telephone call was made to [Appellant] by CompuGig’s administration. During that call [Appellant] indicated that he wished to replace the
hard drive on the laptop. Mr. Eidenmiller was
not privy to the phone call. Mr. Eidenmiller attempted to ‘take an image of the hard drive and
put it on a new hard drive at the customer’s re-

75a
quest.’ While the hard drive was able to be imaged, the procedure of transferring the image
successfully was unable to be completed. Another call was apparently placed to [Appellant]
regarding the matter. In an attempt to move
data from the failing hard drive to a new drive,
Mr. Eidenmiller manually opened various portions of the data contained in the failing hard
drive. In doing so, Mr. Eidenmiller observed the
evidence which [Appellant] is seeking to suppress. Mr. Eidenmiller fist [sic] attempted to
copy the entire folder that contained the evidence at issue without opening it, but was unable to do so. He then opened the folder in order
to copy the within files manually. At that point
he observed the files at issue in the form of
thumbnail images. Mr. Eidenmiller notified his
boss of the discovery.
The police were then called and Officer
[Christopher] Maloney arrived, he spoke both
to the owners of CompuGig and, after being
handed the work order and escorted to the tech
area by the owners, to Mr. Eidenmiller. Mr. Eidenmiller then went to where [Appellant’s] laptop computer was located on a bench inside the
tech area. Mr. Eidenmiller showed Officer
Maloney, at the officer’s request, the evidence
[Appellant] is seeking to suppress. Mr. Eidenmiller prepared a statement for Officer
Maloney and Officer Maloney took possession of
the computer and hard drive that had been delivered to CompuGig, as well as other equipment. At a later date, warrants to search the
laptop and accompanying hardware were se-

76a
cured by Detective Matthew Irvin of the Cranberry Township Police Department.
Trial Court Opinion, 10/3/16, at 2-3 (record citations
and footnotes omitted).
The only issue before us is whether the trial court
properly suppressed evidence from the initial warrantless search and seizure of his laptop computer.
Our standard of review is as follows:
[An appellate court’s] standard of review in
addressing a challenge to the denial of a suppression motion is limited to determining
whether the suppression court’s factual findings are supported by the record and whether
the legal conclusions drawn from those facts are
correct. Because the Commonwealth prevailed
before the suppression court, we may consider
only the evidence of the Commonwealth and so
much of the evidence for the defense as remains
uncontradicted when read in the context of the
record as a whole. Where the suppression
court’s factual findings are supported by the
record, [the appellate court is] bound by [those]
findings and may reverse only if the court’s legal conclusions are erroneous. Where ... the appeal of the determination of the suppression
court turns on allegations of legal error, the
suppression court’s legal conclusions are not
binding on an appellate court, whose duty it is
to determine if the suppression court properly
applied the law to the facts. Thus, the conclusions of law of the courts below are subject to
plenary review.
Commonwealth v. Smith, 164 A.3d 1255, 1257 (Pa.
Super. 2017). Article 1, Section 8 of the Pennsylvania

77a
Constitution precludes warrantless searches of private property. PA. CONST. art. I, § 8. “Absent the application of one of a few clearly delineated exceptions,
a warrantless search or seizure is presumptively unreasonable. Commonwealth v. Williams, 73 A.3d 609,
614 (Pa. Super. 2013) (quoting Commonwealth v.
Whitlock, 69 A.3d 635, 637 (Pa. Super. 2013)), appeal
denied, 87 A.3d 320 (Pa. 2014).
Both parties and the trial court rely heavily on
Commonwealth v. Sodomsky, 939 A.2d 363 (Pa. Super. 2007), another case in which a computer technician discovered child pornography on a customer’s
computer. The Sodomsky Court concluded, under the
circumstances there present, that the customer relinquished his privacy expectation in the contents of his
hard drive. The Commonwealth and the trial court
find Sodomsky controlling, while Appellant argues
that it is distinguishable and/or that it should be overturned.
In Sodomsky, the defendant took his computer to a
Circuit City and requested installation of an optical
drive and DVD burner into his computer. Id. at 364.
The store informed the defendant that it would run
tests to confirm the DVD burner was working, but did
not describe that testing process in detail. Id. In order
to test the newly installed DVD burner, the technician
ran a “general search for a video” to be burned to a
disc. Id. at 365. The search returned a number of files,
some of which “appeared to be pornographic in nature
due to their titles which included masculine first
names, ages of either thirteen or fourteen, and sexual
acts.” Id. at 365-66. The technician clicked on ‘“the
first one’ that appeared questionable, and the video
contained the lower torso of an unclothed male, and

78a
when a hand approached the male’s penis, [the technician] immediately stopped the video.” Id. at 366.
The technician summoned police, as he had been told
to do by a state police officer under such circumstances. Id. Police responded, viewed the video clip the
technician had seen, and seized the computer. Id. Subsequently, they obtained a warrant and discovered
child pornography. Id.
The trial court granted the defendant’s motion to
suppress. Central to the dispute was whether and to
what extent the defendant abandoned his privacy interest in the computer while it was at Circuit City for
the requested work. The trial court reasoned that the
defendant did not expect his computer’s contents to be
published to anyone other than Circuit City employees. Id. at 367.
In canvassing the law of abandonment, the Sodomsky Court noted, “[t]he issue is not abandonment in
the strict property-right sense, but whether the person prejudiced by the search had voluntarily discarded, left behind, or otherwise relinquished his interest in the property in question so that he could no
longer retain a reasonable expectation of privacy with
regard to it at the time of the search.” Id. at 366-67
(quoting Commonwealth v. Shoatz, 366 A.2d 1216,
1220 (Pa. 1976)). Furthermore, “the Fourth Amendment protects people, not places. What a person knowingly exposes to the public, even in his own home or
office, is not a subject of Fourth Amendment protection. But what he seeks to preserve as private, even in
an area accessible to the public, may be constitutionally protected.” Id. at 367 (quoting Katz v. United
States, 389 U.S. 347, 351-52 (1967)).

79a
In light of these principles, the Sodomsky Court
determined that the proper inquiry was whether the
defendant’s “expectation of privacy in the videos on
the computer that he relinquished to Circuit City employees for repairs was reasonable or whether he
knowingly exposed the computer’s video files to the
public such that he voluntarily abandoned his privacy
interest in them.” Id. In other words, did the defendant “give access or knowingly risk access to his video
files.” Id. at 368. This Court disagreed with the trial
court’s analysis because “if [the defendant] exposed
the video contents of his computer to Circuit City employees, he abandoned his privacy interest in those
computer contents because those employees were
members of the public.” Id.
Applying these principles, the Sodomsky Court
noted that the defendant requested installation of a
new DVD drive and was informed that the DVD drive
would be tested once installed. Id. He did not inquire
about the testing process or restrict Circuit City’s access to his files for purposes of running that test. Id.
Further, Circuit City employees discovered the illicit
material while they were testing the DVD drive in a
“commercially-accepted manner.” Id. The employees
were free to choose any video file from the list of videos
to run the test. Id. at 369. In addition, the Sodomsky
Court noted that the defendant’s actions—bringing
his computer to Circuit City, requesting repairs, and
failing to remove or rename the illicit files beforehand—were volitional. Id. at 369.
The Sodomsky Court distinguished Commonwealth v. DeJohn, 403 A.2d 1283 (Pa. 1979), cert. denied, 444 U.S. 1032 (1980), wherein our Supreme
Court held that banks cannot disclose their customers’

80a
financial records without a search warrant. The
DeJohn Court reasoned:
[T]he disclosure by individuals or business
firms of their financial affairs to a bank is not
entirely volitional, since it is impossible to participate in the economic life of contemporary society without maintaining a bank account. In
the course of such dealings, a depositor reveals
many aspects of his personal affairs, opinions,
habits and associations. Indeed, the totality of
bank records provides a virtual current biography. [...] To permit a police officer access to
these records merely upon his request, without
any judicial control as to relevancy or other traditional requirements of legal process, and to
allow the evidence to be used in any subsequent
criminal prosecution against a defendant,
opens the door to a vast and unlimited range of
very real abuses of police power.
Id. at 1289-90.
Similarly, the Sodomsky Court distinguished Commonwealth v. Davis, 743 A.2d 946 (Pa. Super. 1999),
in which this Court held that tenants retain a privacy
interest in rented property despite a landlord’s right
of access. Thus, police subjected the tenant to an unreasonable search and seizure despite the landlord’s
consent to enter the property. Id. at 951-52.
Ultimately, the Sodomsky Court concluded that
the defendant did not retain a privacy interest in his
video files under the circumstances of that case. Sodomsky, 939 A.2d at 369. “If a person is aware of, or
freely grants to a third party, potential access to his
computer contents, he has knowingly exposed the con-

81a
tents of his computer to the public and lost any reasonable expectation of privacy in those contents.” Id.
Appellant first argues that that Sodomsky should
be overruled. Appellant’s Brief at 11-15. That action
must come, if at all, from an en bane panel of this
Court or from our Supreme Court. See Commonwealth
v. Taggert, 997 A.2d 1189,1201n.16 (Pa. Super. 2010)
(noting that one three­judge Superior Court panel
cannot overrule another).
Appellant next argues that Sodomsky is distinguishable. In essence, Appellant argues that he did
not give or knowingly risk access to the illicit photographs in his hard drive because the possibility of
their discovery was extremely remote, given his initial
reasons for leaving his computer with CompuGig. As
noted above, Appellant stated that he could not access
the Internet and that he believed his laptop was infected by spyware or a virus. He did not anticipate
that his hard drive was failing. Nonetheless, the record indicates that CompuGig contacted Appellant after Eidenmiller discovered the failing hard drive, and
Appellant requested that the hard drive be replaced.
Given his consent to the hard drive replacement, Appellant’s original description of the problem is irrelevant to our analysis.
Appellant also argues that he did not anticipate—
and was never told—that CompuGig might need to access individual files in order to salvage data. He notes
that CompuGig first tried to take an image of the entire hard drive and, when that failed, tried to copy individual folders and, when that failed, opened folders
to copy individual files. The illicit photographs happened to be in a folder that would not copy. Appellant
argues that this chain of events was unforeseeable,

82a
and that he therefore did not legally abandon his privacy interest in the illicit photos within the meaning
of Sodomsky.
We believe Appellant reads Sodomsky too narrowly. There, unbeknownst to the defendant, the technician intended to run a test using a video file from
the defendant’s hard drive. See Sodomsky, 939 A.2d at
364. The defendant did not ask how that would be
done, nor did he restrict the means of doing so. See id.
Thus, the defendant was uninformed and unaware of
the possibility that the technician would search video
files on the defendant’s computer. Similarly, in this
case, Appellant was unaware and did not inquire into
the details of the procedure he authorized. The record
reflects that, on November 30, 2015, five days after
Appellant dropped his computer off for service, CompuGig called Appellant and informed him his hard
drive was failing. N.T. Hearing, 7/7/16, at Exhibit A.
Appellant authorized CompuGig to replace the hard
and install an image of the failing drive. Id. Four days
later, on December 4, 2015, a CompuGig administrator called Appellant to “explain that we must do an OS
rebuild with data.” Id. 1 Appellant was informed that
CompuGig intended to install a new hard drive and
transfer data from the old one. Id. at 20.
We find this case slightly distinguishable from
Sodomsky in several respects, but in those respects it
Appellant insists he received only one phone call from CompuGig after his initial visit. Appellant's Brief at 17. Appellant ignores the applicable standard of review, pursuant to which we
“consider only the evidence of the Commonwealth and so much
of the evidence for the defense as remains uncontradicted when
read in the context of the record as a whole.” Smith, 164 A.3d at
1257. The record contradicts Appellant's assertion that he received only one phone call.

1

83a
favors the trial court’s order. The Sodomsky defendant
was unaware that the technician would need to access
any of his files. Here, in contrast, Appellant was informed that CompuGig needed to copy and transfer all
his files. In Sodomsky, the technician noticed incriminating titles attached to the illicit video files, and he
confirmed his suspicions by opening and beginning to
play one of the files. Instantly, the illicit images appeared as thumbnail files when Eidenmiller opened a
folder on Appellant’s hard drive, and they immediately appeared 2 to Eidenmiller to be sexually explicit
depictions of underage children. He conducted no further investigation. We cannot reasonably distinguish
Sodomsky on grounds that Eidenmiller’s methods
were unnecessarily intrusive or unforeseeable, as
compared to those employed in Sodomsky. In other respects, the two cases are similar. Appellant, like the
Sodomsky defendant, did not inquire about or restrict
the means of completing the requested service. The
Sodomsky Court noted the Circuit City technicians
were “testing the DVD drive’s operability in a commercially accepted manner rather than conducting a
search
for illicit items.” Sodomsky, 939 A.2d at
368. Likewise, in this case, Eidenmiller was not
searching for illicit photographs. He discovered the
photographs during a file-by-file transfer after
broader, less intrusive means of transferring the data
The Sodomsky Court expressed no opinion on whether the defendant abandoned his privacy interest in other files, such as email or financial records. Sodomsky, 939 A.2d at 369. Similarly,
we do not address whether and to what extent a person retains
a privacy interest in e-mails, financial records, or other files
whose incriminating nature might not be immediately obvious to
a technician who accesses them in the ordinary course of performing a requested service.
2

84a
failed. Nothing in the record suggests that Eidenmiller failed to use a commercially accepted manner of
performing the work Appellant requested.
In short, we find Sodomsky controlling. As noted
above, the Sodomsky Court concluded that abandonment occurs when a person “freely grants to a third
party, potential access to his computer contents, he
has knowingly exposed the contents of his computer
to the public and has lost any reasonable expectation
of privacy in those contents.” Id. at 370. If the Sodomsky defendant granted potential access to his illicit
files under the circumstances there present, Appellant clearly did so in the instant case. 3
For all of the foregoing reasons, we discern no error
in the order denying Appellant’s motion to suppress
evidence. We therefore affirm the judgment of sentence.
Judgment of sentence affirmed.
Judgment Entered.
s/ Joseph D. Seletyn, Esq.
Joseph D. Seletyn, Esq.
Prothonotary
Date: 12/21/2017
Appellant seeks to avoid this result by relying on United States
v. Jones, 565 U.S. 400 (2012), in which the Supreme Court ruled
that, for Fourth Amendment purposes, police engage in a search
when they place a GPS unit in a person's vehicle. Relying on
Jones, Appellant claims police “physically occupied” and “trespassed upon” Appellant's computer when they retrieved the illicit
files without a warrant. Appellant's Brief at 21. We find Jones
inapposite, and Appellant's reliance on it is not responsive to the
trial court's finding that he abandoned his privacy interest in the
illicit files.
3

85a
APPENDIX C
IN THE COURT OF COMMON PLEAS
BUTLER COUNTY, PENNSYLVANIA
[filed on October 3, 2016]
COMMONWEALTH OF
PENNSYLVANIA
vs.

CRIMINAL DIVISION

C.A. No. 0896 of 2016

JON ERIC SHAFFER
For the Commonwealth:

Patricia J. McLean, Esq.,
First Assistant District
Attorney

For the Defendant:

Lee Markovitz, Esq.

Judge William R. Shaffer
MEMORANDUM OPINION
The Defendant seeks suppression of evidence discovered on his computer during servicing at CompuGig, a computer repair store in Cranberry Township,
Butler County. The Defendant argues that the evidence was observed during illegal warrantless
searches, whereby a technician, and later the police,
improperly trespassed upon the Defendant's effects
and intruded into or onto an area in which the Defendant had a reasonable expectation of privacy. At the
time of the suppression hearing, the Commonwealth
argued that Commonwealth v. Sodomsky, 939 A.2d
363 (Pa. Super. Ct. 2007), was controlling and the Defendant’s motion must be denied because, “[o]nce the
[D]efendant gave [the] computer to CompuGig he had

86a
no expectation of privacy whatsoever.” The Defendant
requested the opportunity to file a brief. Accordingly,
the Defendant was given the opportunity to file a brief
regarding this matter, and the Commonwealth was
given a period in which to file a responsive brief.
The Defendant has filed a brief in which he distinguishes Sodomsky, argues the Defendant had a reasonable expectation of privacy in the items or files
searched, and maintains that the police trespassed
upon his effects by conducting a warrantless search.
The Commonwealth relies upon its argument made at
the time of the suppression hearing. Two witnesses
testified at the suppression hearing on behalf of the
Commonwealth: 1) Justin Eidenmiller, a technician at
CompuGig at the time of the alleged search; and 2)
Officer Christopher Maloney of the Cranberry Township Police Department. They revealed the following
facts.
The Defendant delivered his laptop computer to
CompuGig for repair and completed an initial work
order form that is dated November 25, 2015.1 On the
form, in response to the question, “What problems are
you experiencing?”, boxes next to “Spyware/virus” and
“Can't get to Internet” are marked. Additional information provided by the Defendant at the time he delivered the laptop to CompuGig indicated that "Customer’s son downloaded some things and now there
are a lot of pop-ups. Internet has stopped working."
Commonwealth’s Exhibit 2. After running initial diagnostics, Mr. Eidenmiller believed the computer had
A copy of the form was admitted into evidence as Commonwealth’s Exhibit 1. A work log was entered into evidence as Commonwealth’s Exhibit 2. The log indicates that the evidence at issue was found on December 5, 2015.
1

87a
a failing hard drive. A telephone call was made to the
Defendant by CompuGig’s administration. During
that call the Defendant indicated that he wished to
replace the hard drive on the laptop. OPTM N.T., p.
17. Mr. Eidenmiller was not privy to the phone call.
OPTM N.T., p. 21. Mr. Eidenmiller attempted to “take
an image of the hard drive and put it on a new hard
drive at the customer’s request.” OPTM N.T., p. 6.
While the hard drive was able to be imaged, the procedure of transferring the image successfully was unable to be completed. Another call was apparently
placed to the Defendant regarding the matter. Commonwealth’s Exhibit 2. In an attempt to move data
from the failing hard drive to a new drive, Mr. Eidenmiller manually opened various portions of the
data contained on the failing hard drive. In doing so,
Mr. Eidenmiller observed the evidence which the Defendant is seeking to suppress. Mr. Eidenmiller fist
attempted to copy the entire folder that contained the
evidence at issue without opening it, but was unable
to do so. He then opened the folder in order to copy the
within files manually. At that point he observed the
files at issue in the form of thumbnail images. OPTM
N.T., p. 23-24. Mr. Eidenmiller notified his boss of the
discovery.
The police were then called and Officer Maloney
arrived later in the day. Once Officer Maloney arrived,
he spoke both to the owners of CompuGig and, after
being handed the work order and escorted to the tech
area by the owners, to Mr. Eidenmiller. OPTM N.T. p.
28. Mr. Eidenmiller then went to where the Defendant’s laptop computer was located on a bench inside
the tech area. OPTM N.T., p. 25. Mr. Eidenmiller
showed Officer Maloney, at the officer’s request, the
evidence the Defendant is seeking to suppress. OPTM

88a
N.T., p. 26. Mr. Eidenmiller prepared a statement for
Officer Maloney and Officer Maloney took possession
of the computer and hard drive that had been delivered to CompuGig, as well as other equipment. At a
later date, warrants to search the laptop and accompanying hardware were secured by Detective Matthew Irvin of the Cranberry Township Police Department.
As mentioned above, the Commonwealth argued
that this matter is controlled by Sodomsky. The Defendant, as was noted, distinguishes Sodomsky and
argues that the Commonwealth’s reading of the case
is overly broad. As Sodomsky is at the center of both
sides’ arguments, the facts, as set forth by the Superior Court of Pennsylvania, will be presented in full:
¶2...Richard Kasting was the senior sales assistant in the technology department of the Circuit City Store located on Woodland Road, Wyomissing, Berks County. Mr. Kasting testified
that on October 15,2004, Appellee, Kenneth
Sodomsky, came to Circuit City and asked Mr.
Kasting to install an optical drive and DVD
burner into his computer. The work order that
Appellee executed that day authorized Circuit
City to install and configure the optical drive
unit and DVD in his desktop computer.
¶3 In accordance with store practice, Mr. Kasting summarized to Appellee “what is done during the installation.” N.T. Suppression Hearing, 9/28/05, at 16. Appellee was informed that
as part of the installation process, the installer
would “have to make sure [the DVD burner]
works.” Id. at 17. There is no indication that
Appellee asked how the DVD burner would be

89a
tested or in any manner restricted what procedure could be utilized to confirm the burner’s
operability. Appellee requested that the work
be performed on an expedited basis, and Mr.
Kasting instructed him to return in approximately one hour.
¶4 Toby Werner was in the middle of the installation process when Stephen Richert, the head
of personal computer repairs at that Circuit
City, arrived. Mr. Richert testified that the
DVD drive was installed when he arrived in the
department, but the software had not yet been
installed. Mr. Richert explained that all DVD
burners and players were accompanied by software. Mr. Richert testified specifically that at
Circuit City, with “every installation” of the
hardware, “any supplementary software” was
installed both as a courtesy “and to make sure
when it leaves the store, we can guarantee that
it is working.” ld. at 21.
¶5 After the software was installed, Mr. Richert
performed a general search for a video to test
the new DVD drive. More specifically, he testified as follows:
Well, after we installed the software, we
did a generic search of the PC where you
click on the start menu, you click on
search, and this being the windows XP, a
search box comes up and it is custom
made to this operating system. In this
case, this system, it’s about half way
down the screen on the left-hand side
there’s a search, and you can enter- in
this case, you could enter a specific name

90a
of a file that you're looking for and find
it.
We weren’t looking for anything specific,
so we did a generic search. Below the
field where you could enter the name of
a file that you are looking for, you can
click on the generic boxes listed, picture,
movie or if you click it, it does a general
search of the whole PC and finds any of
that type of objects that you’re looking
for. In this case, we clicked movies or
video, and it brings up all the different
formats of videos.
There are many different types of video
formats. There’s M-peg, MPG-4, AVI,
Quick Time. Any types of those files, if
used to place on Windows Media Player,
which is a program that’s inherent to PC
when running windows XP or to the DVD
software, in certain circumstances, if you
install the software and it wasn’t installed properly or you didn’t receive notification and you try to play the files or
play a DVD movie on the PC, you get distortion that isn’t necessarily seen right
away when you install it.
So, in this case, we wanted to make sure
that all types of files were working fine
so that you wouldn’t get any type of errors. When you install the different type
of software, there’s something called
code X. It’s a little piece of software inside the PC that helps the PC better understand and translate video signals

91a
through different players.
So, in this case, if we play a movie file
and we get distorted colors or blurring of
the image or a ghosting effect where all
color is inverted, we know there is a problem with the installation and we have to
find it and fix it. If there is a software update, we have to uninstall and reinstall
it, if there was an issue.
Id. at 22-23.
¶6 Mr. Richert testified that once the search
button was activated for a given object, the computer automatically loaded the requested files
onto the screen, which continued to enlarge by
itself. Thus, after the search was initiated, Mr.
Richert did not manipulate the computer further to see the entire list of videos Id. at 30-31.
The first few video titles that appeared from
Appellee’s video list were innocuous. However,
as the video log continued to compile on the
computer screen, which occurred without any
human intervention, some of the files appeared
to be pornographic in nature due to their titles
which included masculine first names, ages of
either thirteen or fourteen, and sexual acts. Mr.
Richert clicked on “the first one” that appeared
questionable, and the video contained the lower
torso of an unclothed male, and when a hand
approached the male’s penis, Mr. Richert immediately stopped the video. Id. at 24. Mr. Richert contacted his manager and then telephoned
the Wyomissing police.
¶7 During cross-examination, Mr. Richert admitted that he had been told by a Pennsylvania

92a
State Police Officer to contact police if he ever
ran across what appeared to be child pornography while at work. At the time, Mr. Richert was
taking a course at a local college and hoped to
enter the law enforcement field.
¶8 Wyomissing Police Detective George Bell
and two other police officers responded to the
call and viewed the same video clip. When Appellee arrived to retrieve his computer, Detective Bell informed him that his computer was
being seized because police suspected that it
contained child pornography. Appellee responded that he knew what they had found and
that his “life was over.” Id. at 87. Police took the
computer to the police station, obtained a warrant to search it, and discovered child pornography.
Commonwealth v. Sodomsky, 939 A.2d 363, 364-66
(Pa. Super. Ct. 2007) (footnote omitted). On appeal,
the Commonwealth argued that the suppression court
erred in concluding that the appellee “retained a privacy interest in the computer because he volitionally
relinquished any expectation of privacy in that item
by delivering it to Circuit City employees knowing
that those employees were going to install and test a
DVD drive.” Id. at 366. The Superior Court agreed
with that contention in part, but framed the appropriate considerations as follows:
We must examine whether [the appellee] did
give access or knowingly risk access to his video
files, which were the items discovered herein.
Furthermore, contrary to the trial court’s conclusion, if Appellee exposed the video contents
of his computer to Circuit City employees, he

93a
abandoned his privacy interest in those computer contents because those employees were
members of the public. If Appellee knowingly
published his computer video files to members
of the public, he had no reasonable expectation,
under the applicable law, that the video files
would not be disseminated to other individuals,
including police.
Id. at 368. The Court analyzed the issue as follows:
[A]bandonment is a question of intent and dependent upon all the attendant facts and circumstances. In accordance with this pertinent
standard, we therefore will scrutinize all the
facts and circumstances to determine whether
Appellee retained a reasonable expectation of
privacy in his videos. First, we observe that Appellee gave the employees permission to perform certain actions relative to his computer
files. He requested and consented to the installation of a DVD drive and was specifically informed that the drive’s operability would be
tested by Circuit City employees. Appellee
failed to either inquire as to how the DVD drive
would be tested or otherwise restrict the employees’ access to his computer files for that
purpose. Thus, Appellee should have been
aware that he faced a risk of exposing the contents of his illegal video files. Cf. United States
v. Barth, 26 F.Supp.2d 929 (W.D. Tex. l998)
(computer owner did not lose reasonable expectation of privacy in computer files contained in
searched hard drive because owner gave repairman, a confidential informant, hard drive for
limited purpose of repairing problem unrelated
to files that were searched).

94a
We also find it critical to our analysis that when
the child pornography was discovered, the Circuit City employees were testing the DVD
drive’s operability in a commercially-accepted
manner rather than conducting a search for illicit items. Cf. Barth, id. Appellee implies that
the DVD drive should have been tested by inserting and playing a DVD. Appellee’s brief at
3. Nevertheless, as noted, Appellee did not ask
how the burner would be tested nor did he place
any restrictions regarding the manner of that
procedure. As Mr. Richert’s testimony indicated, the playing of videos already in the computer was a manner of ensuring that the burner
was functioning properly. Once the search for
videos was initiated, the list of Appellee’s videos appeared automatically on the computer
screen. The employee testing the burner was
free to select any video for testing purposes, as
Appellee had not restricted access to any files.
Therefore, Mr. Richert did not engage in a fishing expedition in this case.
The final factor we utilize is the volitional nature of Appellee’s actions. In this case, Appellee
removed the computer from his home, took the
computer to Circuit City, and left it there without either removing the videos containing child
pornography or changing the titles of the videos
so that they did not appear to have illegal content. Contrary to the circumstances in [Commonwealth v. DeJohn, 403 A.2d 1283 (Pa.
1979)], where a person has little choice but to
retain bank accounts in order to function in society, Appellee was not compelled to take this

95a
particular computer containing child pornography to the store in the first instance, nor was he
forced to leave it there after being informed
that the burner’s operability would be checked.
Appellee was aware of the child pornography
and could have elected to leave the store with
the computer rather than risk discovery of the
pornographic files.
Sodomsky, 939 A.2d at 368-69. After concluding that
the appellee had no reasonable expectation of privacy
in the contraband files, the Superior Court determined that the warrantless seizure of the computer
was proper under the plain view exception to the warrant requirement. Id. at 370.
We agree with the Defendant that the position argued by the Commonwealth, that “Once [the Defendant] gave [the] computer to CompuGig he had no expectation of privacy whatsoever”, is broader than
what the holding in Sodomsky supports. Deciding
whether such a position is tenable under the Federal
Constitution or Pennsylvania law is unnecessary. We
do not need to address that broader position because,
as it was in Sodomsky, the question here is whether
the Defendant had a reasonable expectation of privacy
in the evidence for which he is seeking suppression.
The facts here are similar enough that Sodomsky is
controlling. We reject the Defendant’s argument,
raised in his brief, that we must adopt the wider position advocated by the Commonwealth and its position
“that such complete abandonment was accomplished
the moment Defendant handed his computer to the repair shop,” Supplemental Memorandum of Law, p. 5,
in order to find that the Defendant abandoned any expectation of privacy in the files at issue. That is not
the case.

96a
The Defendant did not retain a reasonable expectation of privacy under the facts of this case in the files
at issue when they were first observed by Mr. Eidenmiller. On the initial form submitted by the Defendant, he indicated the problems were “Spyware/virus” and “Can't get to Internet.” Additionally, information was provided to CompuGig indicating that,
“Customer’s son downloaded some things and now
there are a lot of pop-ups. Internet has stopped working.” During the course of diagnosing or attempting to
repair the complained-of problem, it was determined
by CompuGig personnel that the hard drive on the Defendant’s laptop was corrupted. A call was then placed
to the Defendant apparently informing him of the issue. An entry on the log submitted as Commonwealth’s Exhibit 2 reflects the following entry from
“Admin” dated November 30,2015 at 5:29P.M.:
Customer called. I gave him the following quote
which he approved:
New 500 Gig
Reinstall image
PE (If needed)
Less diag
Total

-

$49.00
112.50
129.00
40.00
$250.50

jl

Note: customer is in a bit of a rush for this as
he uses it for his business.
It was related to Mr. Eidenmiller that the Defendant
wished to have the hard drive replaced. In the course
of replacing the hard drive, it was determined that the
normal, automatic imagining procedure was not effectively transferring the full contents of the defective
hard drive onto the new one. The log, admitted as

97a
Commonwealth’s Exhibit 2, shows that several attempts were made to utilized the image of the original
hard drive. Those attempts failed. The log also indicates the following entry from “Admin” dated December 4, 2015 at 4:38P.M.:
Called customer to explain that we must do an
OS Rebuild w/data. I will still apply the $30 off
coupon that we were going to, to the difference
in amount owed by customer is about $25. New
balance owed is $274. LK.
Mr. Eidenmiller then utilized a manual process in order to complete the data transfer. It was during that
process that the contraband at issue was discovered.
Like the appellee in Sodomsky, who requested that
Circuit City perform work on his computer, the Defendant here requested that CompuGig perform work
on his computer related to his complaints of “Spyware/virus” and “Can't get to Internet,” as well as an
indication that his “son downloaded some things and
now there are a lot of pop-ups.” Such a request would
obviously lead a person to conclude that CompuGig
was likely to perform work related to the hard drive
and the files contained on it. The Defendant was or
should have been aware that he faced a risk of exposing the files contained thereon, as was the case in Sodomsky. Also like in Sodomsky, when the files at issue
here were discovered, the CompuGig technician was
attempting to transfer the files contained on the Defendant’s hard drive to a new drive in order to complete the work that was apparently requested by the
Defendant, rather than conducting a search for illicit
items. And while the evidence presented at the suppression hearing did not touch upon whether or not
the Defendant was aware of the files at issue here, his

98a
actions relating to the laptop—taking it to CompuGig,
requesting work be performed, leaving it in their custody, responding to a phone call indicating the computer’s hard drive was failing, apparently requesting
further corrective measures, and, based on Commonwealth’s Exhibit 2, responding to a phone call a second
time and apparently approving work, including an
“OS Rebuild w/data”—were voluntary. Unlike in
DeJohn, none of those actions were required of the Defendant to function in society. Sodomsky is controlling. The Defendant abandoned his privacy interest in
the files at issue here. He cannot object to the subsequent viewing of the files by the police2 . Officer Maloney properly seized the laptop and the other equipment under the plain view exception to the warrant
requirement. He was properly in CompuGig at the invitation of the owners and Mr. Eidenmiller. The computer and files were not obscured and could be seen
plainly from that location. The incriminating nature
of the files was readily apparent, and, because the Defendant abandoned his privacy interest in them, Officer Maloney had a lawful right of access to the files.3
Contrary to the argument made by the Defendant in
his Memorandum of Law, we believe the warrantless
seizure by Officer Maloney was proper.

Neither can he object to the subsequent viewing of the files by
Mr. Eidenmiller, whether or not he was acting as an agent of the
police. Sodomsky, 939 A.2d at 370.
2

We believe the assertion made in the Defendant’s Memorandum of Law filed contemporaneously with his Omnibus Motion,
that inadvertence is required, is incorrect under both Federal
and Pennsylvania law. Horton v. California, 496 U.S. 128, 110 S.
Ct. 2301 (1990); Commonwealth v. McCree, 924 A.2d 621 (Pa.
2007).
3

99a
The Defendant also argues that the search and seizure of the Defendant’s computer was improper based
on a trespass analysis. We believe such an analysis
affords the Defendant no relief given the facts of this
this case. As discussed above, the Defendant, at a minimum, should have known that he was risking exposure of the computer files contained on the hard drive,
and yet he gave permission to CompuGig to perform
work related to the hard drive and the files contain on
it. It was in the course of that work that the files at
issue were discovered. As Mr. Eidenmiller was engaged in conduct that was explicitly or implicitly permitted by the Defendant when the files were discovered, he was not trespassing upon the effects of the
Defendant. Florida v. Jardines, 133 S. Ct. 1409, 1414
(U.S. 2013). Later, after Officer Maloney arrived, Mr.
Eidenmiller again accessed the folder where the files
at issue were contained. While it is true that the scope
of a given license, express or implied, is limited to a
particular purpose, Id. at 1416, even if he was at that
point acting as an agent of the government, it makes
no sense to conclude that Mr. Eidenmiller could no
longer access the files under a trespass analysis when
he properly had done so shortly before in the course of
his employment. Officer Maloney in no way expanded
upon the actions of Mr. Eidenmiller. Commonwealth
v. Harris, 817 A.2d 1033, 1047-48 (Pa. 2002). He, in
fact, merely viewed the images that were presented to
him, albeit at his request. After observing the files,
and immediately seeing that they were contraband,
Officer Maloney seized the computer. Officer Maloney
did not himself physically intrude upon the effects of
the Defendant beyond seizing the computer and related equipment, and that seizure was made only after Mr. Eidenrniller accessed files that had previously

100a
been accessed in the course of his work. We see no basis for concluding that either Mr. Eidenrniller or Officer Maloney impermissibly or unconstitutionally
trespassed upon the effects of the Defendant. But see,
United States v. Ackerman, ____F.3d____, 2016 WL
4158217 (10th Cir. 2016) (characterizing a clearinghouse search of email as a trespass and inadmissible
under the “private search” doctrine in light of United
States v. Jones, 132 S. Ct. 945 (U.S. 2012)). Suppression is not warranted.
Accordingly, the Court enters the following:

101a
IN THE COURT OF COMMON PLEAS
BUTLER COUNTY, PENNSYLVANIA
COMMONWEALTH OF
PENNSYLVANIA

CRIMINAL DIVISION

C.A. No. 0896 of 2016

vs.
JON ERIC SHAFFER
For the Commonwealth:

Patricia J. McLean, Esq.,
First Assistant District
Attorney

For the Defendant:

Lee Markovitz, Esq.

ORDER OF COURT
AND NOW, this 3rd day of October, 2016, following a hearing on the Defendant’s Omnibus Pretrial Motion and the submission of the Defendant’s
Supplemental Memorandum of Law, it is ordered
that the motion is denied.
By the Court,
s/ William R. Shaffer
William R. Shaffer, Judge

